<html>
<title> - UPDATE ON THE LATEST CLIMATE CHANGE SCIENCE AND LOCAL ADAPTATION MEASURES</title>
<body><pre>[Senate Hearing 112-975]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 112-975

   UPDATE ON THE LATEST CLIMATE CHANGE SCIENCE AND LOCAL ADAPTATION 
                                MEASURES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 1, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










         Available via the World Wide Web: http://www.fdsys.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-111 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
          
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             AUGUST 1, 2012
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....    76
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......    77
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    84
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    86
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    88

                               WITNESSES

Field, Christopher B., Ph.D., Founding Director, Carnegie 
  Institution of Washington's Department of Global Ecology, 
  Professor of Biology and Environmental Earth Science, Freeman 
  Spogli Institute for International Studies, Senior Fellow, 
  Stanford University............................................    93
    Prepared statement...........................................    96
    Responses to additional questions from Senator Boxer.........   103
Christy, John R., Ph.D., Distinguished Professor, Director of the 
  Earth System Science Center, Department of Atmospheric Science, 
  University of Alabama in Huntsville............................   106
    Prepared statement...........................................   109
McCarthy, James J., Ph.D., Alexander Agassiz Professor of 
  Biological Oceanography, Museum of Comparative Zoology, Harvard 
  University.....................................................   131
    Prepared statement...........................................   134
    Responses to additional questions from Senator Boxer.........   172
Griffin, John B., Secretary, Maryland Department of Natural 
  Resources......................................................   217
    Prepared statement...........................................   219
    Responses to additional questions from Senator Boxer.........   225
Fielding, Jonathan, M.D., MPH, MBA, Director, Los Angeles County 
  Department of Public Health, National Association of County and 
  City Health Officials..........................................   233
    Prepared statement...........................................   235
    Responses to additional questions from Senator Boxer.........   240
Thorning, Margo, Ph.D., Senior Vice President and Chief 
  Economist, American Council for Capital Formation..............   243
    Prepared statement...........................................   245

 
   UPDATE ON THE LATEST CLIMATE CHANGE SCIENCE AND LOCAL ADAPTATION 
                                MEASURES

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2012

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the Committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Cardin, 
Whitehouse, Udall, Merkley, Sessions, Crapo, and Boozman.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, everybody. I want to welcome 
my colleagues, and I want to welcome our distinguished panel. 
Everyone will have an opening statement. We will be 5 minutes, 
and we will try to stick to it. Go a little bit over, that is 
fine.
    Colleagues, climate change is real. Human activities are 
the primary cause, and the warming planet poses a significant 
risk to people and the environment. I believe to declare 
otherwise is putting the American people in direct danger. The 
body of evidence is overwhelming. The world's leading 
scientists agree. And predictions of climate change impacts are 
coming true before our eyes.
    The purpose of this hearing is to share with the Committee 
the mountain of scientific evidence that has increased 
substantially over time, time that I believe we should have 
used to reduce carbon pollution, the main cause of climate 
change.
    In 2011 the National Academy of Sciences released the Final 
Climate Report. It concluded: ``Climate change is occurring. It 
is caused largely by human activities. It poses significant 
risks for a broad range of human and natural systems, and the 
preponderance of evidence points to human activities as the 
most likely cause for most of the global warming that has 
occurred over the last 50 years.''
    Even some former climate deniers now see the light. Just 
this past weekend, Professor Richard Muller, a self-proclaimed 
climate skeptic, wrote the following in the New York Times: 
``Last year, following an intensive research effort involving a 
dozen scientists, I concluded that global warming was real, and 
the prior estimates of the rate of warming were correct. I am 
now going a step further. Humans are almost entirely the 
cause.''
    Claims by the remaining skeptics are overcome with an 
examination of the facts. At the first hearing of this 
Committee when I became Chairman on January 30, 2007, I invited 
all Senators to give their views on climate change, all 
Senators in the U.S. Senate. More than one-third of the Senate 
spoke out. We put together a book. Do we have that book here? 
Yes. And this is the way the book looked, and it included the 
voices of the Senate, colleagues from all different political 
persuasions.
    At that time, Senator McCain wrote we are no longer talking 
about how climate change will affect our children's lives as we 
did a few years ago. We are talking about how it already is 
impacting the world. Drought, declining snow packs, forest 
fires, melting ice caps, species dislocation, habitat loss, and 
extreme weather events all are examples of how climate change 
is impacting us. We need to act to mitigate and adapt to these 
devastating events. I believe he was right then.
    Senator Snowe said Arctic glaciers and polar ice caps 
millions of years old are melting; sea levels are rising. Our 
own Federal agency, NOAA, reported that 2006 was the warmest 
year since regular temperature records began in 1895, and the 
past 9 years have been the warmest on record. And she was right 
then.
    Now, more than 5 years later, we continue to see evidence 
that the climate is changing around us through trends in 
extreme weather. And we simply cannot afford to ignore the 
warnings. And we have some charts I would like to show.
    The first chart shows a wildfire in Bastrop, Texas, that 
destroyed 1,500 homes in 2011. Chart 2 shows a man in what used 
to be his home in that area. There is nothing left. Chart 3 is 
a headline from The Guardian in the United Kingdom, Deadly Heat 
Waves Will Be More Frequent in Coming Decades Say Scientists. 
Mega-heat waves like the one estimated to have killed tens of 
thousands in Western Europe in 2002 will become up to 10 times 
more likely over the next 4 years, a study suggests.
    There are many examples of how the climate is continuing to 
change around us. NOAA reported in June that the previous 12 
months had been the warmest 12-month period the nation has 
experienced since recordkeeping began in 1895. Many cities set 
all-time temperature records during the month of June. Over 170 
all-time warm temperature records were broken or tied.
    As of July 3rd, 56 percent of the U.S. experienced moderate 
to exceptional drought conditions. Scientists at NOAA have 
confirmed the record breaking Texas drought was strongly 
influenced by climate change.
    NASA reported last month that an iceberg twice the size of 
Manhattan--you could see the size of that iceberg--broke off of 
Greenland, a phenomenon that is expected to be repeated as the 
climate continues to warm. Scientists have also linked warming 
of the oceans to the emergence of a group of bacteria in the 
Baltic Sea in Northern Europe. These recent event make it clear 
that the climate continues to change, and the likelihood of 
extreme events is growing greater which puts our nation, and 
puts our people, at risk.
    In 2008 Congress blocked action. We needed six more votes 
to take action on climate change. But Congress blocked action, 
and we have lost valuable time. But progress has been made. The 
Obama administration deserves credit for moving forward with 
measures to reduce pollution and improve the nation's energy 
efficiency. New automobile efficiency will reduce carbon 
pollution by over 6 billion tons while saving consumers $1.7 
trillion in fuel costs.
    The GSA has reduced energy consumption by 20 percent over 
2003 levels. By 2020 the GSA expects to increase its renewable 
energy production and procurement to 30 percent of annual 
energy consumption.
    According to the Brookings Institution, in 2010 2.7 million 
workers were employed at more than 40,000 companies across the 
nation in the clean energy sector. And bipartisan proposals, 
such as the Bennet-Isakson SAVE Act which would reduce barriers 
to home energy efficiency improvements, offer ways to reduce 
harmful carbon pollution.
    So, colleagues, we cannot turn away from the mountain of 
evidence that climate change has already started to impact the 
planet and will only grow worse without action. Leading 
scientists who are testifying today on the latest science will 
reinforce that point.
    Taking action to address this serious problem will benefit 
us, will benefit us and future generations, will actually 
reduce energy costs in the long-term for our people, make us 
energy independent, and create millions of jobs.
    So, I look forward to hearing from the witnesses. But 
before we do that, we will hear from colleagues. And this is 
one that is a little bit different than a highway bill.
    [Laughter.]
    Senator Boxer. You may see a few disagreements on this 
panel.
    With that I would call on my friend, Senator Inhofe, for 
his statement.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    In a way it should not be any different from the highway 
bill. We just have different beliefs, different ideas, and that 
is what this is all about today.
    Senator Boxer. Yes.
    Senator Inhofe. And so, this seems like the good old days. 
We used to have these hearings all the time. It has been, what, 
since February 2009, I think, since we had one of these on the 
science. So I am glad we are back to doing it now.
    Back then we heard promises from the Obama administration 
of the clean energy revolution with green jobs and propped up 
by billions of taxpayer dollars going to companies like 
Solyndra. What came of all those promises? The global warming 
movement has completed collapsed, and the cap and trade is dead 
and gone.
    I suspect a look back over the past 3 years will be a 
little painful for some. In 2009 the Democratic President, 
overwhelming majority in the House and the Senate, the 
majorities, the global warming alarmists were on top of the 
world. They thought they would reach their goal and have an 
international agreement. All of that was there. I mean, why 
not? We had a Democrat President, Democrat majorities in the 
House and the Senate.
    It did not happen. Of course, what drove the collapse of 
the global warming movement was the science of the United 
Nations Intergovernmental Panel on Climate Change. It was 
finally exposed, I had been exposing it for some time, but it 
actually was exposed when Climategate came.
    And here is something interesting. I am going to read this 
into the record. These are publications that were on the 
alarmist side of this issue. And yet the change that took 
place, the New York Times editorial, ``Given the stakes, the 
IPCC cannot allow more missteps, and at the very least, must 
tighten its procedures and make its deliberations more 
transparent.'' The panel's chairman, again, quoting from the 
editorial, is under fire for taking consulting fees from 
business interests.
    The Washington Post: ``Recent revelations about the flaws 
in that seminal IPCC report ranging from typos in key dates to 
sloppy resourcing are undermining confidence not only in the 
panel's work, but also in the projections about climate 
change.'' Newsweek, some of the IPCC's most quoted data in 
recommendations were taken straight out of unchecked activist 
brochures and newspaper articles. The U.K. Daily Telegraph on 
Climategate, Climategate is the worst scientific scandal of our 
generation.
    This is the science on which all of these things have been 
based. Now, how unpopular is the global warming movement now? 
The Washington Post recently published a poll revealing that 
Americans no longer worry about global warming, and one of the 
reasons is that they do not trust the scientists and their 
motives.
    The IPCC has even lost trust in the left. Andrew Revkin of 
the New York Times--he was one that was always on that side--
recently called for the IPCC Chair, Pachauri, to make a choice 
between global warming activism and leading the IPCC. They are 
also saying similar things about global warming alarmist James 
Hansen. As David Roberts of Grist acknowledged, Hansen has 
become, quoting now, so politicized that people tend to dismiss 
him.
    Just one look at this Committee and we can see how bad 
things have gotten for the alarmists. Today, there are no 
Federal witnesses here to testify, as was called out in an 
article this morning, I think it was in Politico. President 
Obama himself never dares mention global warming. He will not 
say the term. And some of the left have noticed that Bill 
McKibben recently criticized the President for not attending 
the Rio+20 and acknowledged that 20 years ago George Bush did 
attend. And Obama did not even attend.
    It has got to be very hard for my friends on the left to 
watch the President who promised he would slow the rise of 
oceans posing in front of pipelines in my home State of 
Oklahoma pretending to like oil and gas. I imagine they are 
trying to keep quiet because they know that President Obama is 
still moving forward with his global warming agenda. They just 
do not want the American people to know it.
    Now, what the American people do not know, President Obama 
is doing, through his bureaucracy, what he could not do 
legislatively. And we have already identified $68.4 billion 
that has been spent on his global warming agenda. And people 
are not even aware of it. He did it without any authorization 
from Congress.
    Today, we should have a fascinating debate. I want to thank 
Climatologist Dr. John Christy for appearing before the 
Committee to provide his insights. I am also looking forward to 
testimony from Margo Thorning, as we have heard from her 
before, and it will be very good.
    Let me just--we have been through this now for the past 3 
and a half years, and the results are clear. President Obama's 
green energy agenda has been a disaster. The time has come to 
put these tired, failed policies to rest and embrace the United 
States' energy boom so that we can put Americans back to work, 
turn this economy around, become totally energy independent 
from the Middle East, and ensure energy security for the years 
to come.
    I really believe this. We, just in the last couple of 
years--no one is going to deny the fact that we have more 
recoverable reserves in coal, oil, and gas than any other 
country. We could be totally independent. And those who say we 
have got to have green energy to become independent from the 
Middle East, we can do that now, just doing what every other 
country in the world does, and that is develop our own 
resources.
    And while I made the comment about the President not saying 
the words global warming, let me compliment one of my fellow 
Senators. Senator Sanders had read my book and was down on the 
floor on Monday and I happened, when I got off the plane and 
came in, there are people like Senator Sanders, in his heart, 
he believes everything that he says. There is no hypocrisy in 
him. And you see a lot of that in Washington.
    But you do not see as much of the people who sincerely are 
willing to fight for the things that they believe in, as is 
Senator Sanders. I said this on the Senate floor. And I say it 
again. And I know he believes everything that he says. He knows 
that I believe, in my heart, everything that I say.
    So, I was talking to Senator Cardin on the elevator coming 
up here, and we both said, is that not what the Senate is 
supposed to do? All of us represent different people, different 
philosophies, say what we really believe. And I think that is a 
healthy thing.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    I must say it feels like we're back to the good old days. 
It may be hard to believe, but it was in February 2009, during 
the height of the global warming alarmist movement, that this 
Committee last held a hearing on global warming science. Back 
then we heard promises from the Obama administration of a clean 
energy revolution with green jobs propped up by billions in 
taxpayer dollars to companies like Solyndra.
    What came of all those promises? The global warming 
movement has completely collapsed, and cap and trade is dead 
and gone.
    I suspect a look back over the past 3 years will be a 
little painful for my friends on the other side. In 2009, with 
a Democratic President and overwhelming Democratic majorities 
in the House and the Senate, global warming alarmists were on 
top of the world--they thought they would finally reach their 
goal of an international agreement that would eliminate fossil 
fuels. Yet the Waxman-Markey cap and trade bill didn't happen.
    Of course, what drove the collapse of the global warming 
movement was that the science of the United Nations 
Intergovernmental Panel on Climate Change (IPCC) was finally 
exposed. For years I had warned that the United Nations was a 
political body, not a scientific body--and finally the 
mainstream media took notice:
    New York Times editorial: ``Given the stakes, the IPCC 
cannot allow more missteps and, at the very least, must tighten 
procedures and make its deliberations more transparent. The 
panel's chairman . . . is under fire for taking consulting fees 
from business interests . . . '' (February 17, 2010)
    The Washington Post: ``Recent revelations about flaws in 
that seminal IPCC report, ranging from typos in key dates to 
sloppy sourcing, are undermining confidence not only in the 
panel's work but also in projections about climate change.''
    Newsweek: ``Some of the IPCC's most-quoted data and 
recommendations were taken straight out of unchecked activist 
brochures, newspaper articles . . . ''
    UK Daily Telegraph on Climategate: ``The worst scientific 
scandal of our generation.''
    Just how unpopular is the global warming movement now? The 
Washington Post recently published a poll revealing that 
Americans no longer worry about global warming, and one of the 
reasons is because they don't trust the scientists' 
motivations.
    The IPCC has even lost the trust of the left. Andrew Revkin 
of the New York Times recently called for IPCC chair Pachauri 
to make a choice between global warming activism and leading 
the IPCC. They are also saying similar things about global 
warming alarmist James Hansen. As David Roberts of Grist 
acknowledged, Hansen has ``become so politicized that people 
tend to dismiss him.''
    Just one look at this Committee and we can see how bad 
things have gotten for the alarmists: today there are no 
Federal witnesses here to testify about the grave dangers of 
global warming. President Obama himself never dares to mention 
global warming, and some on the left have noticed: Bill 
McKibben recently criticized the President for not attending 
the Rio + 20 sustainability conference, noting that, ``Unlike 
George H.W. Bush, who flew in for the first conclave, Barack 
Obama didn't even attend.''
    It must be very hard for my friends on the left to watch 
the President who promised he would slow the rise of the oceans 
posing in front of pipelines in my home State of Oklahoma 
pretending to support oil and gas.
    I imagine they are trying to keep quiet because they know 
President Obama is still moving forward with his global warming 
agenda--he just doesn't want the American people to know about 
it.
    Now what the American people don't know: President Obama is 
doing through his bureaucracy what he couldn't do 
legislatively. He is spending billions of taxpayer dollars on 
his global warming agenda. We've already identified $68 
billion.
    Today we should have a fascinating debate. I want to thank 
climatologist Dr. John Christy for appearing before the 
Committee to provide his insights. I am also looking forward to 
the testimony of Dr. Margo Thorning, a noted economist who will 
discuss the economic pain of the Obama EPA's current 
regulations.
    We've been through this now for the past 3 and a half 
years, and the results are clear: President Obama's green 
energy agenda has been a disaster. The time has come to put 
these tired, failed policies to rest and embrace the U.S. 
energy boom so that we can put Americans back to work, turn 
this economy around, become totally energy independent from the 
Middle East, and ensure energy security for years to come.

    Senator Boxer. Thank you very much, Senator.
    I want to clear two things up. I did not ask for any 
witnesses from the Administration. I wanted outside scientific 
voices because I did not want to see this turn into an attack 
on the Obama administration. Clearly, clearly, it is still is 
turning into that, but that is OK. I did not want to have a 
witness become the face of the Obama administration because 
they have done a lot on this.
    And I want to put in the record what I talked to before. 
Because you heard my colleague say, no jobs, nothing further. 
Let me just say something here. We are going to put in the 
record the report from the Brookings Institution. They said the 
clean economy which employs some 2.7 million encompasses a 
significant number of jobs in establishments spread across a 
diverse group of industries. Though modest in size, the clean 
economy employs more workers than the fossil fuel industry.
    So, let us just get this straight. Yes, the Obama 
administration has taken some steps. And yes, we have seen job 
creation. We will put that in the record.
    And we will call on Senator Sanders.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Madam Chair, thanks very much for holding 
this important hearing.
    Let me begin by concurring with my friend--and he is my 
friend--Jim Inhofe. Senator Inhofe and I were on the floor the 
other day. We have very strong political and philosophical 
differences. On occasion we agree, on transportation and 
infrastructure. But certainly on the issue of global warming we 
have profound disagreements.
    Do I have any doubt that Senator Inhofe is sincere and 
honest about what he believes? I have no doubt about it. And I 
think he and I are also in agreement that having honest, 
straightforward debates on this issue is good for the Senate 
and good for the people of the United States of America.
    I may be wrong on this, but I think Senator Inhofe, in many 
ways, is the leader of the Republicans on the issue of global 
warming. And I am going to challenge--I think Senator Inhofe's 
positions are extreme, I think they are dead wrong, and I am 
curious to see how many of our Republican friends agree with 
Senator Inhofe. And that is kind of going to be the thrust of 
the work that I am going to be doing in the near future.
    Let me begin by saying that I certainly agree with 
approximately 98 percent of active publishing climate 
scientists according to the National Academy of Sciences that 
global warming is real and that global warming is significantly 
driven by human activity. I think the broad consensus--not 
everyone, to be sure, and I think we may have a scientist here 
today who disagrees--but I think the overwhelming majority of 
peer reviewed scientists who write on this issue believe A, 
global warming is real, and B, global warming is significantly 
caused by human activity.
    In my view, as Americans, as part of the greatest country 
on Earth, we have a moral responsibility and an economic 
responsibility to lead the world in cutting greenhouse gas 
emissions and transforming our energy system to energy 
efficiency and sustainable energies such as solar, wind, 
geothermal, and biomass.
    Senator Inhofe often makes a point, which is valid, which 
is the United States cannot do it alone. If we did it tomorrow, 
what about China, what about India, what about Brazil? He is 
right. But if we do move forward with our technology, with our 
expertise, we could create jobs in this country, not only 
transforming our own energy system but leading other nations 
away from fossil fuel to energy efficiency and sustainable 
energies.
    Now, we have heard a lot, and we have heard it from Senator 
Inhofe again today, about the economic implications of 
transforming our energy system. And I wanted to pick up on the 
point that Senator Boxer has made.
    Studies done--there have been a whole bunch of studies done 
by economic groups, but there was one by the McKinsey 
consulting firm in 2009, and also the American Council for an 
Energy Efficient Economy in 2010, confirming that we can meet 
our 2020 target of reducing emissions 17 percent from 2005 
levels through cost effective energy efficiency alone.
    Now, I come from a cold weather State. Senator Inhofe comes 
from a warm State. They use a lot of air conditioning there, I 
suspect. We use a lot of oil in our State. I can tell you 
firsthand because we are moving fairly aggressively in Vermont. 
Not as fast as we should. But we have seen, through 
weatherization projects, people saving substantial sums of 
money on their fuel bills, 20, 30, 40 percent, through 
retrofitting their own homes. And when you do that, you are 
cutting greenhouse gas emissions by 20, 30, 40 percent.
    In Vermont, we have made a good start. We have a long way 
to go, and we are leading the country. If we do that, we can 
make huge cuts in greenhouse gas emissions. And you know what 
else we do? We are going to create jobs in the process of doing 
that.
    A White House Middle Class Task Force report found that we 
can save up to 40 percent of the energy being used in our homes 
and our buildings with existing technology. In Vermont, we have 
weatherized 15,000 homes over the last 10 years, saving the 
average household over $900 a year on fuel bills. That is a lot 
of money for a middle class person.
    Madam Chair, it is beyond comprehension to me that in the 
year 2012 we are still giving huge subsidies to fossil fuels, a 
19th century technology. And when we hear about so-called 
Solyndra and other problems, please understand that in a 10-
year period we are providing--the Federal Government is 
providing--over $113 billion to coal, oil, and gas. A 10-year 
period, over $113 billion. Meanwhile, here in the Senate we 
face opposition to continuing modest incentives--modest 
incentives--for solar and wind like the Production Tax Credit 
or the 1603 Grant Program.
    So, it is time to get our act together. I have got to say 
this. I think, and maybe Senator Inhofe will agree with me on 
this issue. The whole world is debating global warming. I think 
most people would agree with the position that many of us, on 
this side, are taking. Some will agree with what Senator Inhofe 
is saying. But I think, and Senator Inhofe is right on this 
issue, we need--we cannot run away from this issue. We have got 
to put it front and center. We need debates.
    I thank Senator Boxer for this hearing today. And I hope we 
will continue this discussion in this Committee and on the 
floor of the Senate.
    With that, I would yield.
    Senator Boxer. Thank you.
    Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you.
    Well, let me say with regard to Senator Inhofe, I came 
here, was on this Committee for the first 2 years in the Senate 
15 years ago, and I believe that actual fact, empirical data, 
since that day has validated Senator Inhofe's skepticism and 
has demonstrated the incorrectness of the computer modeling 
that the global warming alarmists have produced.
    Now, that is fact. That is science. And we are going to 
talk about that today. And if that is so, the question for the 
American policymakers is how much can we demand this economy 
pay to meet and confront a fear that is not being proven by 
empirical data? So, that is the question.
    President Obama is engaged in a systematic drive to promote 
the global warming agenda, and in fact said electricity prices 
will necessarily skyrocket. So, this is a big issue. We are 
making this decision right now, and it will be part of the next 
election, I suppose.
    Let us look at this question that has been discussed a lot 
lately about storms and temperature extremes and how this is a 
product of global warming. The data does not show that. This is 
a chart that I hope all of my colleagues will look at. It 
shows, from NOAA's data, when the record high and record low 
temperatures for each State were set. The largest number of 
record highs was set in the 1930s, by far. Twenty-five out of 
50 States set their record highs in the 1920s or 1930s. You 
look at this chart from 1960 through today. Every decade they 
have had more record cold temperatures than record high 
temperatures.
    Now, I do not know whether that is conclusive evidence 
about anything. But it does suggest we are not having more 
extremes, either highs or lows, now than before. But to the 
extent States have set record temperatures recently, more of 
them have been record lows than record highs. And Senator 
Inhofe, you had a record ^31 degrees in Oklahoma recently. That 
is a dramatic thing. We have to look at what is happening.
    Now, this is not what the models have said. The computer 
models say that if CO<INF>2</INF> goes up, temperature will go 
up. And these are the IPCC scientists, Nobel Prize winners and 
so forth. That is what they are predicting.
    Now, look at this chart. When I came to the Senate, Dr. 
Christy testified before this Committee, Dr. Lindzen at 
Harvard, the scientists at MIT, they express skepticism. But 
the overwhelming group of scientists says the computer models 
show that we are going to have dramatic changes in our 
temperature.
    This chart reflects the latest computer models, not the 
ones earlier which were even more extreme. These are the latest 
computer models. The black line shows what the computer 
modeling predicted that temperatures would be. These two lower 
lines, based on satellite data and temperature, show that from 
about the time that I came to the Senate in 1997, the 
temperature has basically stayed flat.
    Yes, it has increased from 1975, from 1980, to 2010, .2 of 
1 degree. Now, you do that over 100 years, that is about .6 of 
1 degree if that trend were to follow. But in the last 10 
years, we have seen virtually no change in the temperature. 
This is from empirical data, what is really happening.
    So, I guess I am saying, Madam Chairman, we have got to be 
careful not to ask the American people to bear an immense 
economic burden to try to defeat a computer modeling that is 
not coming out to be correct. And we know, throughout history, 
that temperature has been up and down----
    Senator Sanders. Would the Senator yield for 1 second?
    Senator Sessions. Yes.
    Senator Sanders. Did you just say, I just wanted to clear 
the record, that in the last decade we have seen no change in 
the temperature? Is that what you just said?
    Senator Sessions. I say that the empirical data, and Dr. 
Christy will explain that these are not his numbers, but they 
are the numbers that have been published, show that the 
temperature is basically the same.
    Senator Sanders. In the last decade?
    Senator Sessions. Yes.
    Senator Sanders. OK. Thank you.
    Senator Sessions. Yes, that is the chart. And so, we have 
heard a lot of spin the other way. I think it is time for the 
nation to discuss it. If those numbers are wrong, Senator 
Sanders, so be it. We would have to confront that issue. But I 
do not think they are wrong. I think they are correct. And that 
means that we need to be careful about what price we expect the 
American people to pay to meet the visions of people who are 
not being proven correct by reality.
    Thank you.
    Senator Boxer. Senator, may I just say, and we will put in 
the record an article that talks about credibility in climate 
change. Ninety-seven to 98 percent of the scientists do not 
agree with the 1 to 2 percent that you are citing. It is fine. 
There are still probably 1 to 2 percent of scientists who do 
not believe that lung cancer is associated with smoking----
    Senator Sessions. Madam Chairman, I am offended by that.
    Senator Boxer. Please do not be----
    Senator Sessions. I am offended. I did not say anything 
about the scientists. I said the data shows it is not warming 
to the degree that a lot of people predicted, not close to that 
much. And you are asking us to have unprecedented high 
electricity prices in order to avoid a danger that is not as 
real as it appears, it seems to me. So we will have a hearing. 
If I am wrong, I will acknowledge it. But I do not think so.
    Senator Boxer. Yes. And I am going to ask the scientists 
about the data that you have used. All I was pointing out is 
that the conclusion you are coming to is shared by 1 to 2 
percent of the scientists. You should not be offended at that. 
That is the fact.
    Senator Sessions. I do not believe that is correct, Madam.
    Senator Inhofe. I have to chime in here because I have not 
had a chance, Madam Chairman, to get my----
    Senator Boxer. Go right ahead. And then we will return and 
go to Senator Cardin.
    Senator Inhofe. When we had our, I thought, very enjoyable 
joint effort on the floor between Senator Sanders and myself on 
Monday, one of the things that came up about the NAS, the 
National Academy of Sciences, I do not think we should let it 
go beyond our recognition that there is a lot of criticism of 
the NAS and their motives.
    Let us keep in mind that the NAS issued a report of the 
coming ice age in 1975. The U.S. National Academy of Sciences 
has turned itself into--I am quoting now from Seth Bornstein, 
which was on the other side of this issue--turned itself into 
an advocacy group on policy promotion.
    I only want to say I disagree with you when you say 1 or 2 
percent. I have on my Web site over 1,000 names, and I think it 
is kind of interesting when you come up with someone who was a 
skeptic and became an alarmist, that is one out of maybe 1,000 
as I mentioned on the floor. So, there is a lot of, the science 
is clearly divided out in the real world, and that is what this 
hearing is all about.
    Senator Boxer. OK. All right.
    Senator Sessions. And Madam Chairman----
    Senator Boxer. Yes, go right ahead.
    Senator Sessions. I would acknowledge that we may well have 
some warming, and it may well be human caused. The disagreement 
that I am concerned about is how much we can affect it, how 
much we can afford to spend to alter it, and I am skeptical of 
the proposal that we have seen.
    Senator Sanders. Would my friend yield?
    Senator Boxer. Just one moment. I am going to try to gain 
some kind of traction here, and then we will, all I am going to 
do now, instead of getting a debate going, is put into the 
record, this is something we have not done in a while. It is 
kind of exciting.
    [Laughter.]
    Senator Inhofe. Yes, the highway bill got kind of boring 
there. It really did.
    [Laughter.]
    Senator Boxer. Yes, we agreed on everything there, which is 
very unusual.
    I am going to put into the record, and I hope Senator 
Sessions that you will look at this, it is a paper by the 
journal, it is the National Academy of Sciences. It is our 
people. And basically, I do not want to get into another 
argument with you, but they used the figure 97 to 98 percent of 
climate researchers agreed with the fact that this is occurring 
now.
    So, I am just, you can read this. You may not agree with 
the----
    Senator Sessions. Well, that would be 3 percent.
    [Laughter.]
    Senator Boxer. All right. All right. We will put this on 
the record. Thank you.
    Senator Cardin, thank you for your patience.
    [The referenced information follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
  
         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Madam Chair. And let me thank 
you for calling this hearing on an update of the latest climate 
change science, and listening to our witnesses, and local 
adaptation measures, which I really do think is critically 
important.
    I would make just an observation on some of the discussion 
that has already taken place by my colleagues. When we talk 
about averages, it can be misleading. One of the consequences 
of climate change is extreme weather conditions. You can have a 
drought in one part of the country and a flood in another part 
of the country, and the equal averages. But the consequences to 
the people of this nation are severe when we have these extreme 
weathers.
    And Senator Sessions, you mentioned the cost of adaptation, 
the cost of dealing with these issues. Those who have survived 
the wildfires have endured a real cost. And those who tried to 
deal without electricity for over a week in 100 degree weather 
suffered significant economic losses.
    So, I think we have to recognize that extreme weather 
conditions have a real burden and cost on our society. Those of 
us who are trying to deal with living on a coast and seeing the 
rising sea level, wondering how we are going to protect our 
critical assets, which may be just a homeowner's property, or 
it may be the Government's Naval Academy, are worried about 
what the effects of climate change are going to be on the 
coasts to our country. So, I do think we have to keep this in 
balance as to the cost to our society.
    Climate change is upon us. It is real. This year the United 
States has seen an increased number of major, deadly storms 
that are devastating to our communities. We have seen major 
wildfires, not only in the West but also in the Plains States. 
We are experiencing a drought that is right now affecting 60 
percent of the country and is predicted to cause food prices to 
rise.
    The time to act is now, to harden our infrastructure 
against extreme heat, to strengthen our electric grid, and to 
prepare our public health infrastructure to protect our coastal 
zones and low lying areas.
    Today we will hear not only from scientists who will 
explain to us the data showing how climate is changing, but we 
will hear from a second panel of policymakers and experts who 
will tell us the efforts we need to take and projects that are 
currently underway.
    Unfortunately, we are already seeing these problems 
happening. Just last month, Washington, DC, hit 95 degrees or 
higher for the 11th straight day, the longest consecutive 
streak on record. This streak coincided with a devastating 
multi-day power outage that crippled the Washington area. In my 
home State of Maryland, hundreds of thousands of folks were 
without power for days and were forced to contend with extreme 
heat without air conditioning.
    The extreme weather that Marylanders had to deal with this 
year is just a continuation of the weather emergencies that 
folks across the country were faced with last year. The 
administrator of NOAA wrote that last year, and I quote, 14 
extreme weather related events caused an incalculable loss of 
human life and cost the U.S. economy more than $55 billion.
    The extreme weather of 2011 has continued into this year, 
not only with strong storms and intense heat but with dangerous 
and deadly wildfire seasons in the American West. A brutal heat 
wave in late June fueled the Wild Oak Canyon fire just outside 
of Colorado Springs. This fire forced the evacuation of more 
than 32,000 residents and engulfed almost 350 homes, almost 
forced the evacuation of the United States Air Force Academy, 
and tragically killed two people.
    Madam Chair, these extreme weather events and increased 
temperatures are not theoretical. They are happening to us 
right now. And when those of us in this hearing room leave this 
building today, we will be walking into one of the worst 
sustained heat waves on record for this area.
    These extremes are the new normal, and they are affecting 
our nation's infrastructure, our environment, and our public 
health and safety. It is time we get serious about adapting our 
infrastructure and systems to these new realities. From our 
transportation infrastructure to our water systems to public 
utilities, major systems are being negatively impacted by heat 
and storms.
    Last month at Washington Reagan National Airport, a U.S. 
Airways regional jet became stuck in the tarmac when 
temperatures over 100 degrees melted the asphalt. There was a 
DC train derailed just down the road last month after tracks 
buckled in the extreme heat. The extreme Derecho storm system 
that devastated the Maryland, Virginia, and DC area last month 
left thousands and thousands of people without power for a week 
during severe heat.
    This is a public health issue, a public safety issue. We 
lost lives. As a result, Governor O'Malley has ordered a 
special task force to specifically examine solutions for 
adapting its utility infrastructure to extreme heat and major 
storms.
    Our water infrastructure already is in desperate need of 
repair. EPA Administrator Lisa Jackson told Congress that 
adapting to changing hydrological conditions caused by climate 
change is a significant issue that water systems must act to 
address. These hydrological changes will likely result in too 
little water in some places, too much water in other places, 
and degraded water quality in other areas across the country. 
According to that study of the National Association of Clean 
Water Agencies, the costs of dealing with these new realities 
will approach $1 trillion through 2050.
    I am the sponsor of a bill, the Water Infrastructure 
Resiliency and Sustainability Act, to equip our communities to 
adapt their water systems to these changing conditions, and I 
thank the Chair for being a co-sponsor on that legislation.
    Madam Chair, I believe that we have a responsibility. I 
have a responsibility in Maryland, to the people in this 
country, to do all I can to prepare us for the consequences of 
climate change. We need to adopt our water infrastructure, our 
transportation infrastructure, and our electrical grid. We need 
to help farmers to adapt so that our food supply in the world 
remains reliable.
    We need to adapt our coastal regions to prepare for sea 
level rise that is already beginning to threaten some of our 
coastal communities. We need to improve our public health 
infrastructure to deal with the heat related illnesses that 
result from these extreme temperatures. In short, we need to 
act now to protect our communities.
    I look forward to the witnesses to give us help and 
direction of what we can do to help prepare our nation.
    Thank you, Madam Chair.
    Senator Boxer. Senator Lautenberg, then followed by Senator 
Whitehouse, unless a Republican comes back.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks very much, Madam Chairman, for 
daring to walk into this bonfire of reality.
    [Laughter.]
    Senator Lautenberg. I find it quite incredible that we are 
still raising the question about whether global warming is a 
real problem.
    In 2003, in this very room, we heard that global warming 
was the greatest hoax ever perpetrated on the American people. 
We had a hearing in this building that included a scientist 
from the Pasteur Institute, and his view was that, and I speak 
some French poorly but I do like the accent, but I will leave 
it out for the moment----
    [Laughter.]
    Senator Lautenberg. He said that it is quite incredible. We 
would know absolutely if we had global warming by the increase 
in mosquitoes, increases in malaria. And we have not seen that. 
There cannot be any global warming, he said in quite 
understandable English.
    And we have gone through these, I am going to call them 
charades for the moment, and our friends on the other side 
happen to be very likeable, but they are wrong.
    [Laughter.]
    Senator Lautenberg. Anyway, one of the things that we ought 
to be----
    Senator Inhofe. I agree with half your statement.
    [Laughter.]
    Senator Lautenberg. Oh, you are not likeable?
    [Laughter.]
    Senator Lautenberg. I have to ask your kids, I guess.
    One of the things that all of us ought to be able to agree 
on is that we need to get our science from scientists, not 
politicians nor industry lobbyists. And the scientists at NASA, 
the National Academy of Sciences and every other leading 
scientific body have made it clear that global climate change 
poses a very serious threat to humanity.
    In the past, that threat may not have seemed urgent. But in 
recent months these dangers have become impossible to ignore. 
Right now, we are seeing the effects of climate change all 
around us, and we have got to take notice and action 
immediately because whatever costs we might be seeing increases 
with now are dwarfed by what could be the result of laissez-
faire, leave it alone and not bother with it; it will take care 
of itself.
    Well, last year was the 11th hottest year on record, it was 
the 11th hottest year on record according to the Commerce 
Department's Annual State of the Climate Report. Heat waves and 
flooding to droughts and extreme tornadoes, the U.S. in 2011 
experienced some of our most destructive weather ever. And 2012 
is on pace to be even worse.
    The first 6 months of this year have been the hottest on 
record for the continental United States, and though our 
colleague from Alabama has found some solace in the fact that 
he found places where it is cold, the fact of the matter is 
that you cannot deny these temperature levels in the recent 
months. It has led to the worst drought in our nation in more 
than half a century, resulting in 1,200 counties being declared 
natural disasters by USDA. And these droughts are killing crops 
throughout the country, forcing taxpayers to dole out $30 
million to $40 million for Federal crop insurance payments, 
according to a recent report.
    Hot and dry conditions have also led to thousands of forest 
fires throughout the United States. According to NOAA, June 
wildfires burned more than 1.3 million acres of land, the 
second most on record. We saw most recently the destruction in 
Colorado Springs where nearly 350 homes were destroyed at the 
cost of $9 million.
    And we have to be clear. This is just the beginning. The 
destruction we see throughout the country and globe is simply a 
thing of signs to come. And if we do not act now to stem the 
worst effects of climate change, we are looking at once greater 
problems with hotter temperature, rising sea levels, extreme 
weather and spread of diseases, climate change poses a serious 
threat to our way of life.
    Nothing, nothing is more important to any of us who have 
children than to care about the kind of a country, the kind of 
an environment, we are going to be leaving for them. And we 
have to remember that the state of the planet that we leave 
them is the ultimate test of our stewardship.
    It has become abundantly clear that we cannot let the 
doubters deter action any longer because they prefer to ignore 
the inconvenient facts of an overwhelming scientific consensus. 
We have got to act on that now.
    And I want to call attention, Madam Chairman, to an article 
that is talked about ravenously, almost, in our Senate, The 
Conversion of a Climate Change Skeptic. It is an article by a 
man named Richard Muller. He is a professor of physics at the 
University of California Berkeley, former MacArthur Foundation 
Fellow. In a very short paragraph, he said, ``Call me a 
converted skeptic. Three years ago I identified problems in 
previous climate studies that in my mind threw doubt on the 
very existence of global warming. Last year, following an 
intensive research effort involving a dozen scientists, I 
concluded that global warming was real and that prior estimates 
of the rate of warming were correct. I am now going a step 
forward,'' he says, ``humans are almost entirely the cause.''
    So, I do not know how we dismiss the evidence we see around 
us and the comments made from reputable organizations. But I 
think this debate ought to be over, and we ought to move, not 
discussing today's hearing, it is very important, but in the 
body that we all spend so much time in, that we ought to get on 
with trying to solve the problem instead of dismissing it.
    Thank you.
    Senator Boxer. Thank you very much.
    Senator Whitehouse, and then we will get to our panel.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madam Chair. I appreciate 
the opportunity to participate in this important hearing.
    Yesterday marked the end of what is expected to be one of 
the top five warmest months on record. The USDA recently 
declared nearly 1,400 counties in 31 States disaster areas as a 
result of the ongoing drought. NASA and NOAA declared the last 
decade the warmest decade on record.
    So, I am glad we have come together to discuss the science 
of climate change. Virtually all respected scientific and 
academic institutions have stated that climate change is 
happening and that human activities are the driving cause of 
this change.
    Many of us here in Congress received a letter from a number 
of those institutions back in October 2009 supporting this 
consensus. This letter was signed by the heads of the 
organizations listed here. These highly esteemed scientific 
organizations do not think the jury is out. They recognize 
that, in fact, the verdict is in, and it is now time for us to 
act.
    As Senator Lautenberg mentioned, Dr. Richard Muller at the 
Berkeley Earth Surface Temperature Project recently revealed 
how he has become a converted climate skeptic. In a New York 
Times op-ed, he cites the findings from his research which was, 
ironically, partially funded by the Koch brothers, that the 
Earth's land temperature has increased by 2.5 degrees 
Fahrenheit in the past 250 years and 1.5 degrees over the past 
50 years. He states, ``Moreover, it appears likely that 
essentially all of this increase results from the human 
emission of greenhouse gases.''
    Unfortunately, human emission of greenhouse gases is on the 
rise. This year a monitoring station in the Arctic measured 
carbon dioxide at 400 parts per million for the first time. 
This is 50 parts per million higher than the maximum 
concentration at which scientists predict a stable Earth 
climate. And it is way out of the bandwidth of 170 to 300 parts 
per million that has prevailed for the last 8,000 centuries on 
the Earth's surface.
    A 2012 report by the IPCC concludes that climate change 
increases the risk of heavy precipitation. Rhode Islanders are 
no strangers to heavy precipitation. In 2010 we saw flooding 
that exceeded anything Rhode Island had seen since the 1870s 
when Rhode Island started keeping records.
    At the height of the rain, streets in many Rhode Island 
towns looked more like rivers than roads. Local emergency 
workers sailed down Providence Street, a main road in West 
Warwick, by boat and Jet Ski, down a main road on boats and Jet 
Skis in order to assist residents trapped by the flood waters. 
While we cannot link that exact storm to climate change, we do 
know that climate change is increasing the risk of extreme 
weather like we saw in Rhode Island.
    As a New Englander, I was very concerned at a report 
released this week by Environment America, When It Rains, It 
Pours, which found that in New England, ``Intense rainstorms 
and snowstorms are happening 85 percent more often than in 
1948.'' Not only are these inundations happening more often, 
but the largest events are actually dumping more 
precipitation--around 10 percent more, on average--across the 
country. For States like mine, as you can see, these storms are 
dangerous, expensive, and cause lasting damage.
    Ensuring the integrity of our infrastructure in the face of 
a rapidly changing climate is essential, and our coastal States 
face a unique set of challenges, what I call the triple whammy. 
We must adapt not only to extreme temperatures and to extreme 
weather events, but also to sea level rise.
    Long-term data from tide gauges in the historic sailing 
capital of Newport, Rhode Island, show an increase in average 
sea level of nearly 10 inches since 1930. At these same tide 
gauges, measurements show that the rate of sea level rise has 
increased in the past two decades compared to the rate over the 
last century. This is consistent with reports that since 1990 
sea level has been rising faster than the rates predicted by 
models used to generate IPCC estimates.
    Sea level rise and the increase in storm surge that will 
accompany it will bring devastation to our doorsteps. Critical 
infrastructure in at-risk coastal areas, roads, power plants, 
waste water treatment plants will need to be reinforced or 
relocated. One consequence of rising sea levels is that local 
erosion rates in Rhode Island doubled from 1990 to 2006. And 
some freshwater wetlands near the coast are transitioning to 
salt marsh.
    In Rhode Island, we are trying to be proactive. We have to, 
frankly, if we want to protect public health and safety. Rhode 
Island has 19 high hazard dams that have been deemed unsafe by 
our Department of Environmental Management. We have 6,000 
onsite waste water treatment systems located near the coast, 
several landfills that may be susceptible to coastal erosion, 
and evacuation routes that could be under water as sea levels 
rise.
    In 2008 our Coastal Resources Management Council adopted a 
climate change and sea level rise policy to protect public and 
private property, infrastructure, and economically valuable 
coastal ecosystem. In 2010 our General Assembly created the 
Rhode Island Climate Change Commission to study the projected 
effects of climate change on the State, develop strategies to 
adapt to those effects, and determine mechanisms to incorporate 
climate adaptation into existing State and municipal programs.
    A draft progress report from the commission lists many ways 
the State is planning to adapt to climate change including 
National Grid, our electricity and natural gas utility, 
undertaking a statewide substation flooding assessment and the 
Army Corps of Engineers, FEMA, and the Rhode Island Emergency 
Management Agency conducting a hurricane and flooding 
evacuation study. And the list goes on and on.
    In the town of North Kingston, Rhode Island, they have 
taken the best elevation data available and modeled 1, 3, and 5 
feet of sea level rise, as well as 1 foot of sea level rise 
plus 3 feet of storm surge. By overlaying these inundation 
models on top of maps identifying critical infrastructure like 
roads and emergency routes, railroads, water treatment plants, 
and estuaries, the town will be able to prioritize 
transportation, conservation, and relocation projects.
    They are also able to quantify the costs of sea level rise. 
In one small area of the town, 1 foot of sea level rise would 
put--I am sorry, I have taken over my time. Let me just ask 
unanimous consent for the remainder of my statement to be put 
into the record as if I had read it.
    Senator Boxer. Absolutely.
    Senator Whitehouse. And I thank the Chairman. I just want 
to emphasize that this is not just a hypothetical problem in 
Rhode Island. It is real, and real government agencies, real 
big corporations, real people are facing the facts and having 
to respond.
    [The prepared statement of Senate Whitehouse follows:]

                 Statement of Hon. Sheldon Whitehouse, 
              U.S. Senator from the State of Rhode Island

    Yesterday marked the end of what's expected to be one of 
the top five warmest months on record. The USDA recently 
declared nearly 1,400 counties in 31 States disaster areas as a 
result of the ongoing drought. NASA and NOAA declared the last 
decade the warmest on record. In 2011 we faced 14 weather 
related disasters totaling more than a billion dollars each in 
overall damages and economic costs. And we already have several 
in 2012.
    I am glad we have come together to discuss the science of 
climate change. Virtually all respected scientific and academic 
institutions have stated that climate change is happening, and 
that human activities are the driving cause of this change. 
Many of us here in Congress received a letter from a number of 
those institutions in October 2009, stating that:
    Observations throughout the world make it clear that 
climate change is occurring, and rigorous scientific research 
demonstrates that the greenhouse gases emitted by human 
activities are the primary driver. These conclusions are based 
on multiple independent lines of evidence, and contrary 
assertions are inconsistent with an objective assessment of the 
vast body of peer reviewed science.
    This letter was signed by the heads of the following 
organizations:
      American Association for the Advancement of Science
      American Chemical Society
      American Geophysical Union
      American Institute of Biological Sciences
      American Meteorological Society
      American Society of Agronomy
      American Society of Plant Biologists
      American Statistical Association
      Association of Ecosystem Research Centers
      Botanical Society of America
      Crop Science Society of America
      Ecological Society of America
      Natural Science Collections Alliance
      Organization of Biological Field Stations
      Society for Industrial and Applied Mathematics
      Society of Systematic Biologists
      Soil Science Society of America
      University Corporation for Atmospheric Research
    These highly esteemed scientific organizations don't think 
the jury's still out. They recognize that in fact, the verdict 
is in, and it's time to act.
    In fact, over the weekend, Dr. Richard Muller, professor of 
physics at the University of California, Berkeley, director of 
the Berkeley Earth Surface Temperature project, and a former 
MacArthur Foundation Fellow, revealed how he's become a 
converted climate skeptic in a New York Times op-ed. He cites 
findings from his research--partially funded by the Koch 
brothers, ironically--that the Earth's land temperature has 
increased by 2 and a half degrees Fahrenheit in the past 250 
years and 1 and a half degrees over the past 50 years. He 
states, ``Moreover, it appears likely that essentially all of 
this increase results from the human emission of greenhouse 
gases.''
    Unfortunately, human emission of greenhouse gases is only 
on the rise. In 2011 the Mauna Loa Observatory documented the 
biggest annual jump in carbon dioxide. And this year a 
monitoring station in the Arctic measured carbon dioxide at 400 
ppm for the first time. This is 50 ppm higher than the maximum 
concentration at which scientists predict a stable climate. And 
this is well outside the 170-300 ppm range that has existed for 
the past 8,000 centuries.
    A 2012 report by the IPCC concludes that climate change 
increases the risk of heavy precipitation. Rhode Islanders are 
no stranger to heavy precipitation. In 2010 we saw flooding 
that exceeded anything we've seen since the 1870s when Rhode 
Island started keeping records. At the height of the rains, 
streets in many Rhode Island towns looked more like rivers than 
roads. Local emergency workers sailed down Providence Street, a 
main road in West Warwick, by boat and Jet Ski; down a main 
road on boats and Jet Skis; in order to assist residents 
trapped by the flood waters.
    While we can't link that exact storm to climate change, we 
know that climate change is increasing the risk of extreme 
weather events like this one. As a New Englander, I was 
concerned by a report released this week by Environment 
America. ``When It Rains, It Pours,'' found that, in New 
England, ``intense rainstorms and snowstorms [are] happening 85 
percent more often than in 1948. The frequency of intense rain 
or snowstorms nearly doubled in Vermont and Rhode Island, and 
more than doubled in New Hampshire.'' And not only are these 
inundations happening more often, but the largest events are 
actually dumping more precipitation--around 10 percent more on 
average--across the country. For States like mine, as you can 
see, these storms are dangerous, expensive, and cause lasting 
damage.
    We are moving down a troublesome and unknown path where the 
best thing we can do is prepare for dramatic environmental 
shifts. We must look to science and scientists and use the best 
available data to protect and prepare both our natural and 
built environments, which sustain us and our economy. Ensuring 
the integrity of our infrastructure in the face of a rapidly 
changing climate is essential. Coastal States face a unique set 
of challenges--what I call a triple whammy--as we must adapt 
not only to extreme temperatures and weather but also to sea 
level rise.
    As average global temperatures rise, less water will be 
stored in snowpack and the ice sheets of Antarctica and 
Greenland. We also know that at higher temperatures water 
expands to greater volume. Predictions for sea level rise range 
from 20-39 inches by the year 2100, with recent studies showing 
that the numbers could be even higher due to greater than 
expected melting of glaciers and ice sheets.
    Long-term data from tide gauges in the historic sailing 
capital of Newport, Rhode Island, show an increase in average 
sea level of nearly 10 inches since 1930. At these same tide 
gauges, measurements show that the rate of sea level rise has 
increased in the past two decades compared to the rate over the 
last century. This is consistent with reports that since 1990 
sea level has been rising faster than the rate predicted by 
models used to generate IPCC estimates.
    Sea level rise and the increase in storm surges that will 
accompany it will bring devastation to our doorsteps. Critical 
infrastructure in at-risk coastal area--roads, power plants, 
waste water treatment plants--will need to be reinforced or 
relocated. Additionally, our estuaries, marshes, and barrier 
islands that act as natural filtration systems and buffers 
against storms will be inundated, with little time or space to 
retreat and move inland as they have in the past.
    One consequence of rising sea levels is that local erosion 
rates in Rhode Island doubled from 1990 to 2006, and some 
freshwater wetlands near the coast are transitioning to salt 
marsh. Increased sea level and erosion puts critical public 
infrastructure at risk. In Rhode Island, we have a small but 
vibrant coastal community, Matunuck, where beaches have eroded 
20 feet over the past 12 years. The town faces very difficult 
decisions as the only road connecting about 1,600 residents and 
several restaurants and businesses is protected by less than a 
dozen feet of sand. The road, which provides access for 
emergency vehicles and lies on top of the water main, must be 
protected. But what are the costs of protecting this piece of 
road for areas nearby or further down shore? Often, when you 
protect one area of beach from erosion by hardening or altering 
the shoreline, you do so at the sacrifice of other areas.
    These are not easy decisions for communities with limited 
resources when lives and livelihoods are at risk, and climate 
change will only make things worse. To best protect 
infrastructure and the communities and families that live in 
at-risk areas, we must plan ahead, using the best and most 
reliable science, and be able to prioritize adaptation efforts.
    In North Carolina, the State legislature considered a 
measure that would have severely restricted the ability of 
their Coastal Resources Commission to employ scientific 
estimates of future sea level rise. This type of thinking will 
cost money and lives in the future.
    In Rhode Island, we're taking a different approach. We have 
to if we want to protect public health and safety. Rhode Island 
has 19 ``high hazard'' dams that have been deemed ``unsafe'' by 
our Department of Environmental Management. We have 6,000 
onsite waste water treatment systems located near the coast, 
several landfills that may be susceptible to coastal erosion, 
and evacuation routes that could be underwater as sea levels 
rise.
    In 2008 our Coastal Resources Management Council adopted a 
Climate Change and Sea Level Rise Policy to protect public and 
private property, infrastructure, and economically valuable 
coastal ecosystems. The policy states the following:
     The Council will integrate climate change and sea level 
rise scenarios into its operations to prepare Rhode Island for 
these new, evolving conditions and make our coastal areas more 
resilient.
     It is the Council's policy to accommodate a base rate of 
expected 3-5 foot rise in sea level by the year 2100 in the 
siting, design, and implementation of public and private 
coastal activities and to ensure proactive stewardship of 
coastal ecosystems under these changing conditions. It should 
be noted that the 3-5 foot rate of sea level rise assumption 
embedded in this policy is relatively narrow and low. The 
Council recognizes that the lower the sea level rise estimate 
used, the greater the risk that policies and efforts to adapt 
to sea level rise and climate change will prove to be 
inadequate.
    This policy is already helping the State make smart 
decisions. For example, when a new pump station was needed at a 
sewage treatment plant, CRMC looked at sea level rise models 
before determining where it should go, avoiding future 
relocation costs or malfunction in the face of flash flooding 
and sea level rise.
    In 2010 our General Assembly created the Rhode Island 
Climate Change Commission to study the projected impacts of 
climate change on the State, develop strategies to adapt to 
those impacts, and determine mechanisms to incorporate climate 
adaptation into existing State and municipal programs. A draft 
progress report from the Commission lists many ways the State 
is planning to adapt to climate change, including:
     Creating a ``Structural Concept and Contingency Plan to 
Inundation of the Ferry Terminals and Island Roadway Systems'';
     Creating the ``Central Landfill Disaster Preparedness 
Plan'';
     National Grid, our electricity and natural gas utility, 
undertaking a ``Statewide Substation Flooding Assessment''; and
     The Army Corps of Engineers, FEMA, and the Rhode Island 
Emergency Management Agency conducting a ``Hurricane and 
Flooding Evacuation Study.''
The list goes on and on.
    In the town of North Kingston, Rhode Island, they have 
taken the best elevation data available and modeled 1, 3, and 5 
feet of sea level rise, as well as 1 foot of sea level rise 
plus 3 feet of storm surge. By overlaying these inundation 
models on top of maps identifying critical infrastructure like 
roads, emergency routes, railroads, water treatment plants, and 
estuaries the town will be able to prioritize transportation, 
conservation, and relocation projects. They are also able to 
quantify the costs of sea level rise. In one small area of the 
town, 1 foot of sea level rise would put 2 buildings, valued at 
$1.3 million, underwater. Five feet of sea level rise, however, 
jeopardizes 116 buildings valued at $91 million.
    Similarly, by modeling how sea level rise will impact 
estuaries, towns can preserve areas that will stay wetlands or 
undeveloped areas that will become wetlands in the future, as 
opposed to areas that will be lost. Estuaries act as nurseries 
for our hugely valuable fisheries and protect our homes, 
buildings, and communities from storm surge. There is already 
limited funding to protect these important ecosystems, and this 
kind of planning promotes efficiency in spending.
    Now is the time to start making policy that helps us all 
adapt to the emerging scientific reality that our actions 
affect our environment.
    Nature could not be giving us clearer warnings. Whatever 
higher power gave us our advanced human capacity for 
perception, calculation, analysis, deduction, and foresight has 
lain out before us more than enough information to make the 
right decisions. Only a wild and reckless greed, or a fatal 
hubris, could blind us to our world's distress signals. 
Fortunately, these human capacities provide us everything we 
need to act responsibly, if only we will.

    Senator Boxer. Thank you very much.
    Now, we turn to our esteemed panel. We have two majority 
witnesses and one minority witness.
    Our first witness is Dr. Christopher B. Field, Founding 
Director, Carnegie Institution of Washington's Department of 
Global Ecology, Professor of Biology and Environmental Earth 
Science, Freeman Spogli Institute for International Studies, 
Senior Fellow, Stanford University.
    We welcome you.
    We ask all of our witnesses to try to stick to 5 minutes. 
We will give you a little leeway there, but if you can keep it 
to 5.

 STATEMENT OF CHRISTOPHER B. FIELD, PH.D., FOUNDING DIRECTOR, 
   CARNEGIE INSTITUTION OF WASHINGTON'S DEPARTMENT OF GLOBAL 
ECOLOGY, PROFESSOR OF BIOLOGY AND ENVIRONMENTAL EARTH SCIENCE, 
  FREEMAN SPOGLI INSTITUTE FOR INTERNATIONAL STUDIES, SENIOR 
                  FELLOW, STANFORD UNIVERSITY

    Mr. Field. Thank you, Chairman Boxer, Ranking Member 
Inhofe, and Members of the Committee. I am delighted to appear 
before you today to discuss one of the most important issues 
facing our nation, the challenge of a changing climate.
    The link between climate change and the kinds of climate 
extremes that lead to disasters is clear. To quote the latest 
report of the Intergovernmental Panel on Climate Change, a 
changing climate leads to changes in the frequency, intensity, 
spatial extent, duration, and timing of extreme weather and 
climate events and can result in unprecedented extreme weather 
and climate events.
    My name is Chris Field. I am a working scientist. Over the 
past 35 years I have published more than 200 peer reviewed 
papers about all aspects of climate change. In 2008 I was asked 
by the Bush administration to help coordinate the work of the 
Intergovernmental Panel on Climate Change or IPCC. That is work 
that I now do as an unpaid volunteer.
    In my testimony today, I will address three aspects of the 
state of science of climate change. Three key points. The 
first, climate change is real. Second, some kinds of extreme 
events are already increasing. Third, climate change leads to 
risks in the kinds of extreme events that can lead to 
disasters.
    Climate change science is complex, technical, and rapidly 
changing. We are very fortunate in climate science to be able 
to take advantage of a wide range of comprehensive assessments 
so that all the scientists who are working in this complicated 
topic can bring their ideas together, sort them out, see which 
ones stand the test of time, and present balanced, 
authoritative overviews of what is known and what is not known 
about climate science.
    And recent assessments overwhelmingly support the 
conclusion that ``Climate change is occurring. It is very 
likely caused primarily by the emission of greenhouse gases 
from human activities and poses significant risk for a range of 
human and natural systems.'' This is from the 2011 report of 
the U.S. National Academy of Sciences and is absolutely 
characteristic of what is coming from all of the major 
assessments by national academies of scientists from around the 
world and the Intergovernmental Panel on Climate Change.
    The conclusion that warming in the climate system is 
unequivocal is supported by many kinds of data. Could I have 
the first chart, please? Several groups have analyzed weather 
station data, and they all reach strikingly similar 
conclusions. As you can see from the figure on the easel, 
global land areas warmed by about 2 degrees Fahrenheit since 
1900. We really have reached the point where the question of 
whether the Earth is warming is no longer in doubt.
    In its 2012 report on extreme events and disasters, the 
IPCC concludes, based on observations, not on models, that we 
have experienced increases in three kinds of extremes--extremes 
of high temperatures, extremes that are associated with intense 
precipitation, and extremes that are associated with high sea 
levels, basically storm surge. It also provides evidence that 
human caused climate change has played a role in these kinds of 
extremes.
    Now, for some kinds of climate related extremes, we do not 
yet know the strength of the link with climate change. But for 
many other categories of extreme climate and weather events, 
the pattern is increasingly clear. Climate change is shifting 
the risk of hitting an extreme. The IPCC concludes that climate 
change increases the risk of heat waves, heavy precipitation, 
and droughts for most land areas.
    These findings about risk do not speak directly to the role 
of climate change in any particular event. In this sense, the 
increase in risk of a climate extreme from climate change is 
parallel to the increasing risk of an accident from speeding in 
a car. We can point clearly to the causal mechanism, but it is 
still difficult to predict exactly when or where the crisis, 
either the accident from speeding in a car or the disaster that 
is related to climate change, will occur. But still, we can 
still have high confidence in the driving mechanism. It is also 
important to recognize that just as many factors influence the 
risk of a car accident.
    The risk of climate related disasters is also influenced by 
a number of things like disaster preparation and early warning. 
As a result of recent progress in understanding the role of 
climate change and the risks of extremes, it is now possible to 
quantify the way that climate change alters the risk of certain 
kinds of extremes. For example, climate change at least doubled 
the risk of the European heat wave of 2003. This was a major 
event that resulted in tens of thousands of excess mortalities.
    For the 2011 Texas drought, La Nina--this is the cold water 
in the eastern Pacific--played a role. But recent research by 
David Rupp and colleagues indicates that there is now more than 
20 times greater likelihood of high temperatures during a La 
Nina than in the 1960s. More than 20 times greater likelihood 
of high temperatures now than in the 1960s.
    Let me conclude with a comment about the 2011 Texas 
drought. The U.S. is an agricultural superpower. It is our 
responsibility, I believe, to maintain the ability of our 
citizens and the people of Texas to sustain their role as the 
nation's second largest producer of agricultural income. For 
this hope to be realized, the farmers and ranchers of Texas 
have to have access to the best available information so that 
they can make sound choices about their future and their 
children's future.
    In summary, there is no doubt that the climate has changed 
and that changes will continue with an amount that is 
determined by the amount of heat trapping gases that we release 
into the atmosphere. There is also no doubt that a changing 
climate changes the risk of extremes, including extremes that 
can lead to disasters----
    Senator Boxer. Ten seconds; close it up.
    Mr. Field [continuing]. Recognizing these changing risks is 
critical, if we are to make good decisions about the challenges 
of protecting and enhancing our natural legacy, our economy, 
and our people.
    Thank you very much.
    [The prepared statement of Mr. Field follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
     
    Senator Boxer. Thank you, Dr. Field.
    Now, I understand--Senator Sessions, would you like to 
introduce the minority witness, John Christy, Dr. Christy?
    Senator Sessions. I would be honored if you would allow me 
to do that.
    Senator Boxer. I would love for you to do that. Sure.
    Senator Sessions. Dr. Christy is a Distinguished Professor 
of Atmospheric Science, I believe the only climatologist here 
today. Since 1987 he has been a professor at the Atmospheric 
Science Department at the University of Alabama, Huntsville. He 
currently serves as Director of the Earth Science System 
Center. He holds Master and Doctorate degrees in Atmospheric 
Sciences from the University of Illinois and in mathematics and 
a Master of Divinity.
    He has served as Alabama State Climatologist since 2000. 
During his time, he was worked with Dr. Roy Spencer to produce 
a global temperature data set from satellite observation. For 
their work, Drs. Christy and Spencer were awarded NASA's 
prestigious Medal for Exceptional Scientific Achievement in 
1991. Five years later he and Dr. Spencer were recognized by 
the American Meteorological Society for the development of a 
precise record of global temperatures from operational polar 
orbiting satellite data.
    For his contribution to climatology and research, he was 
inducted as a Fellow into the American Meteorological Society 
in 2002. He has been involved with the Intergovernmental Panel 
on Climate Change by serving as a contributor and lead author 
on U.N. reports. Through his efforts working with the IPCC, 
satellite temperature became classified as high quality data 
sets for the purpose of climatology research.
    He served on five different national research council 
panels and committees, participated in research projects funded 
by NASA, NOAA, DOE, and DOT and the State of Alabama, published 
numerous times in journals including Science and Nature, 
Journal of the Climate, and Journal of Geophysical Research. He 
has spent time in Africa. He is married with children and is no 
stranger to Washington. He has testified over a dozen times at 
the House and the Senate.
    Thank you, Madam Chair.
    Senator Boxer. Thank you so much. And I reserve the right 
to extend and revise my introductions to include the life 
stories, the awards, and the great speeches of our two 
witnesses.
    [Laughter.]
    Senator Boxer. But you could not have done a better job.
    Dr. Christy, go ahead.

 STATEMENT OF JOHN R. CHRISTY, PH.D., DISTINGUISHED PROFESSOR, 
  DIRECTOR OF THE EARTH SYSTEM SCIENCE CENTER, DEPARTMENT OF 
    ATMOSPHERIC SCIENCE, UNIVERSITY OF ALABAMA IN HUNTSVILLE

    Mr. Christy. Thank you, Chairman Boxer, Ranking Member 
Inhofe, and Senator Sessions and Committee members.
    I am a climate scientist. I build data sets from scratch to 
answer questions about climate variability and to test 
assertions people make about climate change. And that really is 
what the scientific method is all about.
    During the heat wave of late June and early July, high 
temperature extremes were becoming newsworthy. Claims were made 
that thousands of records were broken each day, and that is 
what global warming looks like. And that got a lot of 
attention.
    However, these headlines were not based on climate science. 
As shown in Figure 1.3 of my testimony, which did not make it 
here today, it is scientifically more accurate to say this is 
what Mother Nature looks like because events even worse than 
these that we have seen here have happened in the past before 
greenhouse gases were increasing like they are today.
    Now, it gives some people great comfort to offer a quick 
and easy answer when weather strays from the average rather 
than struggle with what the real truth is. The real truth is we 
do not know enough about the climate to even predict events 
like this.
    Climatologists looking at the heat wave would not be 
alarmed because the number of daily high temperature records 
set in the most recent decade was only--were actually less than 
half of that set in the 1930s, as shown in my written 
testimony.
    Senator Sessions. Would you like to use this chart that I 
had?
    Mr. Christy. No, it is a different chart. It is a different 
chart. But thank you, Senator. It is a different chart. More 
dramatic, I think, but I did not make it up.
    I suppose most people forget that Oklahoma set a new record 
low of 31 below; it was not 27, it was 31 below this past year. 
And in the past 2 years, towns from Alaska to my home State of 
California established records for snowfall.
    The recent anomalous weather cannot be blamed on carbon 
dioxide. More evidence is available now to suggest that the 
climate is not as sensitive to extra greenhouse gases as 
previously thought, and now I will put that second one there. 
This is a spaghetti chart. There are 34 climate models on 
there.
    But if you just focus on the black line that Senator 
Sessions showed earlier, that is what the models indicate 
should be happening now. And yet the real world, where the 
circles are, you see it at the bottom, is what has actually 
happened.
    The temperature of the models clearly has overdone what has 
happened, and when considering legislation I would encourage 
you to base it on the observations rather than the speculative 
trends of climate models. And basing legislation on 
observations means addressing the large year to year variations 
that were talked about, like droughts and flood that caused so 
much economic distress.
    There is still a discrepancy between the warming and the 
traditional surface data sets and less warming in the 
atmosphere. A new study led by my colleague, UA Huntsville's 
Richard McNider, along with my observational studies, explains 
part of the reason for the difference. When the surface and air 
around a thermometer station are disturbed by, say, 
urbanization, farming, aerosols, and so on, nighttime surface 
temperatures will appear to be warm due to a complicated 
turbulent process, not the greenhouse effect. The bottom line 
is that traditional surface temperature is contaminated by such 
effects and is not an accurate indicator of greenhouse warming.
    When it comes to legislation or regulatory actions, there 
really is nothing that will definitively alter whatever the 
climate is going to do. However, I suspect there will be some 
discernible economic consequences if energy costs rise.
    As more CO<INF>2</INF> is released back into the 
atmosphere, there are benefits that are often overlooked. Most 
notable of these is the invigoration of plant life on which we 
and the rest of the animal world depend for food. 
CO<INF>2</INF> is fundamentally plant food, and therefore, our 
food.
    Today, carbon energy provides about 87 percent of the 
world's energy demand. So, if CO<INF>2</INF> is increasing, 
that is an indicator that a nation is providing energy for its 
people who then live longer, healthier, and more productive 
lives. As someone who has lived in Africa, I can say that 
energy--without energy, life is brutal and short. So this is a 
goal of poor countries, to access energy.
    I will close with this unpleasant thought. Demanding a 
reduction in worldwide CO<INF>2</INF> emissions without 
affordable, reliable alternatives means reducing the hope for 
prosperity of our fellow world citizens who are struggling to 
escape their impoverished condition.
    Thank you for your time. I will be happy to answer 
questions that you may have.
    [The prepared statement of Mr. Christy follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
        
    Senator Boxer. Thank you so much, Dr. Christy.
    Now we are going to turn to our last witness on this first 
panel, Dr. James McCarthy, Alexander Agassiz Professor of 
Biological Oceanography, Museum of Comparative Zoology, 
Harvard.
    And we will expand your repertoire when we get to the 
written record.

   STATEMENT OF JAMES J. MCCARTHY, PH.D., ALEXANDER AGASSIZ 
  PROFESSOR OF BIOLOGICAL OCEANOGRAPHY, MUSEUM OF COMPARATIVE 
                  ZOOLOGY, HARVARD UNIVERSITY

    Mr. McCarthy. Thank you, Chairman Boxer, Ranking Member 
Inhofe, and members of the Committee for your attention to the 
important matter of climate change.
    I wish today to talk about new evidence that we see in the 
ocean for climate change and evidence of the ocean's response 
to the changing conditions in the atmosphere as we are 
increasing the insulation of the atmosphere with the addition 
of greenhouse gases.
    The first figure that we will show on the easel is a 
checklist. It is a checklist that you might have imagined 
assembling in the 1960s when people were first saying, well, if 
greenhouse gases continue to increase, what would you expect to 
be the indicators in climate. This was published in 2009, a 
joint effort of NOAA and the American Meteorological Society.
    If you could read those indicators, this is a figure that 
is contained in my written testimony, it is Figure 1 in the 
testimony as well; you would see that every indicator that you 
would expect to change, and the direction it would change the 
Earth through warming with the addition greenhouse gases is, in 
fact, what we have observed.
    Now, one of the interesting aspects of this that I wish to 
spend a bit of time on today is how the deep ocean has changed. 
The oceans are vast. The Pacific Ocean alone covers over 40 
percent of the planet. The average depth is about 2 miles. And 
so, as we hear a lot of talk about variation on land and the 
measurement of land temperature, the ocean is sampled in a 
different way. It has historically been sampled by ships, by 
oceanographic vessels, but also by other ships that have done 
routine measurements of ocean temperature and sometimes ocean 
temperature at depth as well.
    So, what was implemented in the early 2000s was a major new 
effort to understand how the ocean heat content is changing at 
great depth. If we could put up the second slide. This is also 
from my written testimony; it is Figure 2 in the written 
testimony.
    What we now know from this array of about 3,500 buoys that 
are moving around the oceans at all times covering all areas of 
the ocean, areas that are not typically well sampled, is that 
most of the heat that has been put into our Earth climate 
system as a result of greenhouse gases is actually in the 
ocean.
    More importantly, these new sensing systems allow for 
precise detection of how this is changing over time. And so 
what we see is that the change over time in the deep ocean heat 
content--and this is a graphic that I have in my written 
testimony--has increased steadily over time, and we now know it 
with increasing precision because of these buoys that are 
moving about the world's oceans and constantly monitoring the 
deep ocean heat content.
    When I began my career in ocean science, most ocean 
scientists could not have imagined that the deep ocean--which 
we knew in many areas had been at constant temperature for 
decades and even a century--would change in our lifetimes. We 
now see it is everywhere.
    Now, this has implications for sea level rise. It also 
tells us, as we see this steady trend of increase in the ocean, 
deep ocean heat content, that the noise and the signature on 
land, and statements such as, well, it really hasn't warmed 
much in the last 10 years, you can see that the ocean has 
warmed steadily over the last 10 years. So, whereas on land 
there are questions about where the observations are and local 
variation, these get smoothed out in the ocean.
    Now, I would like to turn to another subtle part of how 
this all plays in. As the deep ocean warms, of course the ocean 
continues to expand. As the mercury warming in the thermometer 
rises, the ocean warms; it will rise.
    If you look at the estimations of how sea level would rise 
over time, estimations that would have been made a decade or 
two ago, we did not have a really good understanding of how the 
deep ocean was responding. We do now. So estimates of sea level 
rise and projections of sea level rise are going to be much 
more precise in the future.
    Another term in sea level rise is the loss of ice from 
glaciers in the Arctic and the Antarctic. Again, with satellite 
measurements to inventory the amount of ice in Greenland and 
Antarctica, we can now see very precisely how it is changing. 
So this, in addition, gives us increased confidence and 
understanding. You cannot project something, you cannot predict 
a trend, unless you know what is causing it. But with these new 
measurements now, in the ocean and with ice, we understand much 
more than we did a decade ago about sea level rise.
    We also note changes in Arctic sea ice are affecting 
climate. Believe it or not, if you lose ice in the Arctic, you 
can bring more cold air down into the center of the United 
States. Papers published on this in the last couple of years 
have shown the role of large undulations in the jet stream. You 
have less ice in the Arctic, you lose the insulation. So the 
ocean, the warm ocean, the moist ocean, loses heat and loses 
moisture to the atmosphere. If that moves south to where we 
are, we can actually get not only more snow but more cold 
weather.
    I would like to conclude then with a slide on sea level 
rise. So 40 percent of the world's population lives about 60 
miles from the coast. And we know that the rate of sea level 
rise is increasing. We know that it is increasing now at a rate 
of about three times what it did a century ago. And we know 
that the projections made only a decade ago, very cautious 
projections because we did not understand what was happening on 
Greenland the way we do now, or the Antarctic, are going to 
lead to higher projections of sea level rise going forward.
    So, I would like to just conclude by pointing out that we 
see that it is variable. The red area indicates where sea level 
rising is occurring at the highest levels. And the reasons for 
this have to do with ocean circulation.
    Senator Boxer. If you could wrap it up.
    Mr. McCarthy. I would just like to conclude by saying that 
there is no debate that the Earth's temperature is increasing. 
Over the last half-century, the atmosphere, land surface, ocean 
surface, and deep ocean and ice loss in polar regions have all 
confirmed this. And they can only be explained by the increase 
in greenhouse gases. There is no scientific evidence that 
refutes this conclusion.
    Thank you.
    [The prepared statement of Mr. McCarthy follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
      
    Senator Boxer. Thank you very much.
    I just want to say, on behalf of all of us, to all three of 
you that we are so appreciative of your testimony today. Very 
clear, I thought, and thought provoking.
    So, we are going to start a series of questions, and then I 
am going to keep the record open for a couple of days. Would 
you all be willing to answer questions in writing? Because I 
know I have so many I will not have time to ask them.
    Senator Inhofe. Me, too.
    Senator Boxer. And so does Senator Inhofe as well as 
others. OK, so we will do that.
    Mr. Christy, your written testimony cites a study by 
Anthony Watts that claims to find bias in thermometer stations' 
readings. Has this study been submitted to a journal for 
publication or been through a peer review process?
    Mr. Christy. Not to a journal yet.
    Senator Boxer. OK. So, there has been a study, and you cite 
it, that there is a bias in thermometer station readings. Do 
you think people are lying about what they read, or are they 
not presenting it right? That there is a bias in thermometer 
station readings?
    Mr. Christy. Right. The study simply put the category of 
stations that have a lot of stuff around them in one category, 
and a second category of uncluttered stations, they are rural, 
and there is a significant difference between them.
    Senator Boxer. OK.
    Mr. Christy. There are other things that need to be done 
yet.
    Senator Boxer. So, who is guilty of this bias? Who is doing 
this? Who is making a decision that leads to a bias?
    Mr. Christy. I am sorry, of what?
    Senator Boxer. You say that there is a bias in thermometer 
stations' readings.
    Mr. Christy. Oh.
    Senator Boxer. Who is guilty of the bias? Who has the bias?
    Mr. Christy. If the readings of the thermometers do not 
take into account that clutter around the station, then there 
is a bias in those----
    Senator Boxer. By whom?
    Mr. Christy. Thermometer readings are taken by the 
traditional surface measurements up here.
    Senator Boxer. Right.
    Mr. Christy. Because those classification schemes have not 
been applied to those----
    Senator Boxer. How would you fix this problem?
    Mr. Christy. Well, we are working on that right now.
    Senator Boxer. OK.
    Do you agree with that, Dr. Field, that there is a bias 
here?
    Mr. Field. NOAA, the National Oceanic and Atmospheric 
Administration, has a number of published studies on the 
question of whether there any problems in the temperature 
record from the U.S. weather stations and their studies have 
consistently not been able to find any problem and consistently 
indicate that the stations are accurately reflecting both the 
underlying temperatures and the underlying temperature trends.
    Senator Boxer. And has that been peer reviewed?
    Mr. Field. Those are in the peer reviewed----
    Senator Boxer. OK, so I think enough on that.
    Mr. Christy. OK, there are no----
    Senator Boxer. If I could just finish, then you can 
respond.
    When a study is not peer reviewed, you can understand why 
some of us might be skeptical. Now, Dr. Christy, have you seen 
this, Our Changing Climate 2012, Vulnerability and Adaptation 
to the Increasing Risks from Climate Change in California? It 
just came out. Are you familiar with it?
    Mr. Christy. I am familiar with previous reports. I believe 
I might have seen a draft of that.
    Senator Boxer. This just came out yesterday. So, we will 
make sure you see it. I am not going to ask you specifically 
about what is in it. But I am going to tell you what it found. 
What they say is the latest science on climate changes impacts 
of California, dozens of scientists in over 30 peer reviewed 
papers. It describes various climate change impacts including 
increased temperatures, sea level rises, wildfire risk, and air 
pollution levels.
    Now, you live in California, in my State. Is that correct?
    Mr. Christy. I am a native Californian.
    Senator Boxer. All right. Where do you live now?
    Mr. Christy. Alabama. I am the State Climatologist.
    Senator Boxer. Oh, OK. So, you are there now. Well, I want 
to tell you things are changing in our State if you do not know 
that. Just your own eyes would tell you, the type of droughts, 
the type of bark beetles, the types of problems that we are 
having. And I am asking you, do you believe----
    Mr. Christy. May I respond, Madam Chairman?
    Senator Boxer. Do you believe that State and local 
governments should ignore these overwhelming scientific 
findings and stand idly by as the health and well-being of 
their citizens are harmed when such a report comes out that is 
peer reviewed?
    And I will say to you, technical staff from all of the 
agencies, outside scientific experts, 26 research teams and 
other research groups produced 30 peer reviewed papers, and 
they are warning the people of California what is going to 
happen. And they are warning the agricultural industry and the 
tourist industry. Do you think we should just say let us just 
wait and see?
    Mr. Christy. I suspect they did not include my peer 
reviewed papers in there that do not show the changes in 
snowfall and Central California temperatures and so on----
    Senator Boxer. So you----
    Mr. Christy [continuing]. Show the contamination in those 
peer reviewed papers. I bet they did not use those.
    Senator Boxer. Well, let me just say this. You stand with 
about 2 or 3 percent of scientists, is that right, in your 
conclusions?
    Mr. Christy. The question, that comes from a study of 77 
people. And I suspect, if I were asked the question, I would 
have been on the majority because the question was very 
milquetoast. It was, do you think climate change is occurring? 
Do you think the world is warming? Well, virtually everyone 
agrees with that, that climate change is always occurring.
    Senator Boxer. So you think it is. You think it is. So, do 
you think that we should take action since you do not doubt 
that the planet is warming?
    Mr. Christy. Well, as a scientist I would ask the question 
what action do you want to take? I will test it to see if it 
will make a difference. And as I have done throughout all of my 
career----
    Senator Boxer. OK, well that is a step forward that you 
say----
    Mr. Christy. Those changes will not make a difference.
    Senator Boxer [continuing]. That global warming is 
occurring. I think that is a very important point.
    So, I really do want to be a little California-centric 
here. We do represent 38 million people in our State.
    My last question is to Dr. Field. In California in 2010, 
agriculture had revenues of $37.5 billion, and tourism 
supported nearly 900,000 jobs and $90 billion in direct 
spending. That is why this type of peer reviewed report is so 
critical to our people.
    So, I am asking you if you believe, unless we can turn 
things around, should we expect more frequent and intensive 
extreme weather that could impact these types of key economic 
sectors?
    Mr. Field. Thank you, Senator Boxer. As I said in my 
testimony, the conclusion from the latest IPCC report is really 
clear. A change in climate leads to change in the risks of 
extremes. We are already seeing increases in extremes, and we 
are seeing increasing risks of the kind of extremes that can 
lead to weather and climate disasters, the kinds of weather and 
climate disasters that can have profound effects on 
agriculture, on industry and on infrastructure.
    Senator Boxer. So, in just concluding my discussion with 
you, Doctor, I thought your testimony was clear. You said you 
are sure about three things. You were not sure about 
everything. But the three things, and I can to remember them, 
was higher temperatures and higher sea level, and the third 
one?
    Mr. Field. We are seeing increases in the record so far of 
increases in extremes related to high temperatures, increases 
in the fraction of rainfall that is falling in the heaviest 
precipitation events, and increases in extreme events that are 
connected to high sea level, basically storm surge.
    Senator Boxer. OK. Thank you very much.
    Senator Inhofe.
    [The referenced information follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
 
    Senator Inhofe. Thank you, Madam Chairman.
    Let me, first of all, ask unanimous consent to place into 
the record an article that completely discredits the Perkins 
Institute article that was referred to. It is from the New York 
Times, entitled Number of Green Jobs Fails to Live up to 
Promises. Part of the record, please.
    Senator Boxer. It was the Brookings Institute, not the 
Perkins Institute, but I will put it into the record.
    [The referenced information was not received at time of 
print.]
    Senator Inhofe. The second thing I want to do, I think 
everyone on the other side of the aisle referred to Richard 
Muller, and I think it is important that we realize that 
perhaps he has been somewhat discredited. Roger Pelkey, Sr., 
said it certainly appears that Richard Muller is an attention 
getter which he has succeeded at, unfortunately he has 
demonstrated a remarkable lack of knowledge concerning the 
uncertainties in qualifying the actual long-term surface 
temperature trend, as well as a serious incomplete knowledge of 
the climate facts. The bigger issue is how the New York Times 
let itself be conned into running Muller's op-ed.
    Second, the one who is the darling of everybody to the left 
of me right now, Michael Mann, he said it seems in the end 
quite sadly that it is all really about Richard Muller's self-
aggrandizement.
    Senator Boxer. We will put that into the record.
    Senator Inhofe. Very good, very good.
    Now, let me just briefly, because there is not going to be 
enough time to get to everything I would like to, but as I 
mentioned early in my opening statement there is a confidence 
problem, crisis, in the U.N. IPCC. A lot of people are not even 
using that anymore.
    Yet it is important because, if you remember, as the Obama 
administration said, the IPCC is the gold standard. So, we need 
to recognize what has happened, and I would only ask, I think 
everyone on this panel has said some things that it needs 
reform, and a lot of reform efforts have taken place.
    In my opening statement, we talk about the discrediting of 
the IPCC which I have been talking about, quite frankly, for 10 
years. So I would ask you, Dr. Christy, do you think now that 
the changes that you are have seen, that are in the process of 
being made, are going to clean up the credibility of the IPCC?
    Mr. Christy. Well, I have not seen the 2013 report yet. But 
I do not suspect much will change. When you collect a bunch of 
people who have the same, pretty much the same view, about 
climate change and exclude those who have different views, you 
will get the answer you want.
    Senator Inhofe. Yes. And I think you have probably looked 
on my Web site and some of the talks that I have made on the 
floor where we have actually had scientists calling in and 
saying how they were rejected from the process because of their 
views. So, I think it has been biased all along from the very 
beginning.
    A lot of people believe that today's hearing is an effort 
to capitalize on the recent weather events of the summer in an 
attempt to reignite the global warming hysteria. And I would 
note that when I--put the igloo up. Now, to the right of the 
igloo is a beautiful family. Those are six of my--I have 20 
kids and grandkids, those are six of them. They were up here 
stranded in Washington a couple of years ago because of extreme 
weather, and all of the airports were closed.
    But at that time I never said or implied anything, just 
because it was a very cold winter, that that had anything to do 
with discrediting global warming. And so, I think it is 
important that if one scientist who was interviewed in response 
to the igloo my family built called attempts to link single 
weather events to longer term climate patterns complete, 
ignorant nonsense. Nevertheless, there have been those on the 
outside who have tried to say this is the pattern.
    I do not think that there is, I have said this on the 
Senate floor, I believe I would say to my good friend, Senator 
Sanders, that one area where all scientists should agree, that 
one pattern, or a cluster pattern, is not indicative of 
anthropogenic gas, global warming. And I believe that to be 
true.
    So, Dr. Christy, do you have anything to say about this? 
Because this is what is going on right now. As a matter of 
fact, in an interview in my State of Oklahoma, they are saying, 
we are having very hot weather. My wife even called in a 
comment on that when I was on the floor with Senator Sanders. 
So I would like to have you kind of explain what your feeling 
is concerning weather versus climate.
    Mr. Christy. I think the clearest way to answer that is to 
look at a lot of stations and see when their record highs 
occur. And if you look again at my written testimony, Figure 
1.3, it is very clear that our record extreme high temperatures 
are not increasing, that decades in the past had many more when 
the stations are consistently used. Not just stations with 30 
years of record, stations with 100 years of record that picked 
up those heat waves of the 1920s and 1930s.
    Senator Inhofe. Well, let me just ask you another question. 
On the floor of the Senate on Monday I was doing this, and I 
have done it so much I can do it from memory, but going through 
the last hundred or so years, from 1895 to 1925 we had a period 
of about 30 years where it was-- people were saying another ice 
age is coming; we are all going to die. And that when hysteria 
set in.
    Then from 1925 to 1945 we went through a warming period, 
and that is when the phrase global warming was actually coined, 
at that time. Then from 1945 to 1975 we went into another ice 
age, so-called. That is when the National Academy of Sciences 
said.
    No, you went an extra minute and a half so I am doing the 
same thing.
    Senator Boxer. I know, you are asking a question----
    Senator Inhofe. I am asking a question. I will get an 
answer in a minute.
    And the interesting thing about all of these things, of 
going through this, is that no one disagrees with the fact that 
the greatest surge in the release of CO<INF>2</INF> occurred 
after World War II, around 1945. Why did that precipitate a 30-
year ice age as opposed to a warming period?
    Mr. Christy. Well, about that I will say this. Our 
ignorance of the climate system is enormous. And I think you 
all need to understand that.
    Senator Inhofe. Thank you very much.
    Mr. Christy. We cannot predict much at all.
    Senator Inhofe. Thank you, Madam Chair.
    Senator Boxer. I just want you to know I do remember when 
you did that, and you invited Al Gore to come and live in that 
house.
    Senator Inhofe. It actually slept four people.
    Senator Boxer. I remember it very clearly because the 
headline the next day, ABC News, was Inhofe Uses Blizzard to 
Refute Global Warming.
    [Laughter.]
    Senator Boxer. February 11, 2010. But that was a headline. 
And I think it is important for us to realize that it is 
absolutely true, it is not the weather; it is the climate.
    Senator Inhofe. I do not think anyone at this table is 
going to have a problem with a headline that some biased 
reporter might use.
    Senator Sanders. Madam Chairman.
    Senator Boxer. Just a moment. OK? Just relax, Senator.
    Senator Sanders. I am relaxed.
    Senator Boxer. Well, you are not. You keep telling me this 
one, that one. We will continue this in a civil way, and we 
will not descend into saying one thing and then have the facts 
disprove it, because you have to make a point if the facts 
disprove what you say.
    Senator Sanders. Thank you.
    I wanted to, because I believe that my good friend, and he 
is a good friend, and he is honest and he is sincere, Jim 
Inhofe, is in a sense the ideological leader of the Republicans 
on this issue, I am going to do my best to quote Senator Inhofe 
on his views of this issue. And Jim, if I am misquoting you, I 
want you to tell me. I am going to do my best to get you as 
accurate as I can, and I want the members of the panel to tell 
me whether Senator Inhofe is right or whether or not the 
scientific community disagrees with him.
    Now, Senator Inhofe has said repeatedly, recently just the 
other day on the floor of the Senate and in his book, which I 
am reading, I am reading it, he gave it to me very kindly, and 
I am going to read every word of it, he said that in his view 
global warming is the greatest hoax ever perpetrated on the 
American people.
    Now, my understanding is that NOAA says that global average 
surface temperatures have increased 1.3 degrees Fahrenheit 
since 1900. NASA says the global average surface temperatures 
of this planet have increased by 1.5 degrees Fahrenheit since 
1880. Dr. Richard Muller recently wrote an article in which he 
said that the planet has warmed 2.5 degrees Fahrenheit over the 
last 250 years.
    So either NASA, NOAA and many other scientists are correct 
in stating that the planet is warming, or perhaps Senator 
Inhofe is correct that global warming is a hoax.
    Senator Inhofe. Just for a moment here. Stop the clock 
because I do not want to use----
    Senator Boxer. Whoa, whoa, whoa, whoa.
    Senator Inhofe. Well, he asked me the question, Madam 
Chairman.
    Senator Boxer. Would you like the Senator to yield for a 
question?
    Senator Inhofe. Yes.
    Senator Sanders. I would ask unanimous consent, I am going 
to yield. But I ask that it not be taken out of my time.
    Senator Boxer. Absolutely.
    Senator Inhofe. The original statement was that the notion 
that anthropogenic gases are causing catastrophic global 
warming is the greatest hoax ever perpetrated on the American 
people.
    Senator Sanders. OK.
    Senator Inhofe. So, it was, that is a little addition to 
the definition.
    Senator Sanders. OK, thank you.
    OK, so here is my question, very briefly because we do not 
have a lot of time, to the three scientists in front of us. Is 
the scientific community correct in believing that global 
warming is real? Or is Senator Inhofe correct in believing that 
global warming is a hoax?
    Dr. Field.
    Mr. Field. The scientific community is as close to unified 
as it is on anything ever in that global warming is 
unequivocal.
    Senator Sanders. Dr. Christy, is global warming real or is 
it a hoax?
    Mr. Christy. In the political context in which that was 
stated, I think I understand that it is overstated as a 
political issue.
    Senator Sanders. Is global warming real or is it a hoax?
    Mr. Christy. The world has warmed in the past 120 years.
    Senator Sanders. Pardon me?
    Mr. Christy. The world has warmed in the past 120 years.
    Senator Sanders. It has warmed in the last 120 years?
    Mr. Christy. Yes.
    Senator Sanders. So, those of us who believe in global 
warming, are we perpetrating a hoax?
    Mr. Christy. I think the question is how much is due to 
human effects, and can you do anything about it. That is the 
question.
    Senator Sanders. OK.
    Dr. McCarthy, is global warming a hoax?
    Mr. McCarthy. It is unequivocal the earth is warming, and I 
think the evidence that humans are contributing to it is also 
unequivocal.
    Senator Sanders. OK, next question. And again, I do not 
want to misquote my good friend. I would never do that. Senator 
Inhofe, he is very sincere about this. But we cannot have a 
debate unless we are being honest with each other.
    Senator Inhofe said to NBC News in an interview in July 
2010, ``We are in a cycle now that all the scientists agree is 
going into a cooling period.'' Then, on the Senate floor on 
July 11th, Senator Inhofe said, ``We went into a warming period 
that went up to the turn of the century. Now it is actually 
going down into a cooling period again.''
    I believe Senator Inhofe just referred a few moments ago to 
a recent period where we were going into an ice age. Question 
to the members of the panel. Senator Inhofe has suggested that 
we are in a cooling period since the year 2001. Others have 
testified that we are seeing a significant increase in 
temperature. Is Senator Inhofe right that we are in a cooling 
period over the last 10 or 11 years?
    Dr. Field.
    Mr. Field. There is no indication of any change in the rate 
of warming of the earth system over the last 10 years.
    Senator Sanders. Are we getting warmer, or are we going 
into a cooling period?
    Mr. Field. Dr. McCarthy shared the conclusive evidence 
about the increased heat that is being accumulated in the 
oceans.
    Senator Sanders. OK.
    Dr. Christy.
    Mr. Christy. It depends on what year you start and what 
year you end, but basically----
    Senator Sanders. Since 2001.
    Mr. Christy. That has been pretty flat in terms of 
temperature.
    Senator Sanders. You do not--OK.
    Dr. McCarthy.
    Mr. McCarthy. This last decade is the warmest on record. 
And if you look at the ocean cycles, particularly El Nino, you 
can understand that indeed this decade is also warming at about 
the same rate as earlier decades.
    Senator Sanders. Dr. Christy, you disagree with Dr. 
McCarthy?
    Mr. Christy. Oh, yes. In fact, I showed it in the chart.
    Senator Sanders. OK, thank you.
    All right, next question. Getting back to the point that 
Senator Inhofe just made----
    Senator Inhofe. Could I just interrupt and ask you a 
question at this point?
    Senator Sanders. Could you let me--I would appreciate it if 
you would let me ask my questions, then I would be happy to 
take any questions----
    Senator Boxer. Well, if I could just say, we still have 
colleagues that have questions. We are not going to have any 
more interruptions.
    Senator Sanders. OK. Senator Inhofe says global warming is 
the greatest hoax ever perpetrated on the American people, and 
he had some ideas about who the perpetrators are. In an 
interview with this book, about his recent book, which was done 
with Craig Bannister, this is what he says.
    Mr. Bannister says, now why do you call the global warming 
hoax a conspiracy? Senator Inhofe says, well, it is a hoax and 
a conspiracy, Craig, because they try to make it appear that we 
are all going to die if we do not line up and do what they 
want, what they tell us to do, in terms of anthropogenic gases, 
when in fact you have a bunch of people, you have the Al Gores, 
the George Soros, the MoveOn.org, the whole Hollywood elite 
group and all of them trying to run everyone else's lives.
    And this is what their motivation is. To make people, for 
the kids, for example, make little kids and school kids believe 
that the world is coming to an end, and it is all man's fault, 
and it is all the fault primarily of the wealthier nations, and 
this is part of the hoax.
    Question: Do you believe that global warming is a hoax 
being pushed by the United Nations, Al Gore, George Soros, the 
whole Hollywood elite and MoveOn.org?
    Dr. Field.
    Mr. Field. Global warming is certainly not a hoax.
    Senator Sanders. Dr. Christy.
    Mr. Christy. That question, I do not know how to answer. I 
would just say the global warming issue is highly overblown 
from what you look at real, hard core----
    Senator Sanders. Do you think the U.N. is engaging, and the 
Hollywood elite and Al Gore and all of these guys are pushing--
--
    Mr. Christy. I am not going to go to the motives of these 
people.
    Senator Sanders. OK. Fine.
    Dr. McCarthy.
    Mr. McCarthy. There is no hoax. There is no conspiracy.
    Senator Boozman. Madam Chair, point of order.
    Senator Boxer. Thank you, Senator.
    Senator Boozman. Madam Chair.
    Senator Boxer. Yes.
    Senator Boozman. I was under the impression that if a 
member in questioning mentions another member's name that he 
does have the right to respond. Is that correct or not?
    Senator Boxer. Well, we do not have any such stated rules. 
But as you know, I did allow a couple of interruptions here. 
And if Senator Inhofe wants to take another round, we can all 
have another round.
    Senator Boozman. But I do think that is fair, I mean, in 
the sense that----
    Senator Boxer. I will call on Senator Inhofe, but I would 
like to say we do not have any rules. We try to do this in a 
collegial way.
    Senator Inhofe, I will give you 2 minutes.
    Senator Inhofe. I do not need 2 minutes. I would only say 
this. The key to the question which was corrected by Senator 
Sanders is that anthropogenic gases is causing this. I would 
hope that when you get to the chapter on the United Nations 
that you read it very carefully, and then you and I can visit 
about that.
    I ask unanimous consent that we include in the record at 
this point a statement that is by someone on your side of this 
issue, Jim Lovelock, who made the statement that the world has 
not warmed up very much in the millennium, 12 years is a 
reasonable time. And he goes on to say yes, it has leveled off 
now. So, there are other scientific opinions which are 
expressed in this document.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. Thank you. Thank you very much. We are going 
to try to get through this a little bit faster here if we can. 
So we are going to turn now to Senator Sessions.
    Senator Sessions. Let us go over this chart because we have 
a desperate, an aggressive, let me say, attempt to take weather 
difficulties and extreme events to paint a picture of climate 
change occurring in an unprecedented degree.
    Dr. Christy, if we are having extreme weather events, it 
would seem to me that record lows and record highs would 
indicate that. Is that correct? One of the implications?
    Mr. Christy. Yes. If someone claims that, it is a claim 
that can be tested. I have heard the claim.
    Senator Sessions. Now, this chart that indicates clearly, 
if you can see it, the blue represents record low temperatures; 
the red represents record high temperatures since the 1890s. 
And you have taken--you have looked at stations that have been 
in existence for at least 80 years. Is that correct?
    Mr. Christy. Yes.
    Senator Sessions. Is it not true that if you take a station 
that has been in existence for 25 years you could have a high 
but it would be only within that, at that station, over a 25-
year period?
    Mr. Christy. That was the fallacy of all of these reports 
this year, that they used stations with only 30, 35, 40 years 
of data that did not include the 1930s and 1920s. And so you 
had all of these record highs.
    Senator Sessions. So, in the 1930s, we did not have nearly 
as much CO<INF>2</INF> in the atmosphere as we have today?
    Mr. Christy. That is right.
    Senator Sessions. Would you just explain to me, this is 
rather dramatic, since 1960 through today according to your 
data which takes NOAA's temperature records State by State, 
every single decade, this is not 1 year but every decade, there 
have been more cold lows than there have been warm highs. Is 
that correct?
    Mr. Christy. That is not consistent with what someone would 
want if warming were to occur. But as I say, and we talked 
earlier, extremes are pretty poor metric to use to claim 
something about climate change.
    Senator Sessions. I would just want to say that that is a 
cause of concern as we as policymakers are asked to invest 
trillions of dollars of taxpayers' money. We need to consider 
whether or not this event is actually occurring and whether we 
just have more TV and weather channels that give more attention 
to these storms. We see the forest fires on the television. It 
does not mean we did not have forest fires previously. A forest 
fire is no proof of global warming. Give me a break.
    But this is more troubling. Senator Inhofe has been 
attacked here. He said years ago--as a lone voice, frankly, I 
remember him speaking out--that he had doubts about these 
projections. And you expressed doubts about these projections--
climate computer models--in your testimony before the Committee 
when I was on it years ago.
    Would you explain what is happening in that chart and why 
that is an important chart?
    Mr. Christy. OK, this is about as simple as you can get. 
The black line is the average of the 34 latest IPCC climate 
models. The blue and red lines are two independent satellite 
temperature data sets. So, we are comparing apples to apples by 
starting in the same period and going forward in time. And you 
see that the temperatures have leveled off in the past 12 or 13 
years when you look at this average, significantly different 
from what models say.
    Senator Sessions. So the policy we have been asked to set 
over the last 15 years in the Congress have been based on the 
computer models, I would say. I mean, we have been told by the 
IPCC and other climate experts that these computers were 
predicting a dramatic increase in temperature. I would just say 
that the dramatic increase in temperature has not occurred, it 
seems to me, and I believe it calls on us all to be a bit 
cautious.
    Can CO<INF>2</INF> increase temperature? I would think 
there is some logic to that theory. It could be a blanketing 
greenhouse gas. But how much can we hammer working Americans 
with extreme electric bills and other costs for gasoline to try 
to confront the issue? This is a question that all of us have 
to wrestle with. And I believe Dr. Christy's testimony is 
accurate. I believe Senator Inhofe, whose skepticism has been 
courageously stated for a long time, has been proven more 
accurate than a lot of the scientists who have produced these 
models to date.
    Thank you.
    Senator Boxer. I will call on Senator Cardin.
    He is not here, so I will call on Senator Lautenberg.
    Senator Lautenberg. Thanks, Madam Chairman.
    We are getting a semantic debate going here, as well as a 
review of science. And I wonder, there is quite a difference 
between a projection and a hoax. Projection is done in honest 
form by reading from whatever instruments or data one receives. 
But a hoax is a produced action to deceive people. None of you 
teach English but I know that you speak it very well.
    And so what happened around here is there has been an 
attempt to discredit science, and it goes on continually to try 
and make a case for disbelieving what is in front of you.
    Dr. McCarthy, in 2009 a hacker stole a number of e-mails 
from the climate change scientists. Conservatives, Republican 
news media have seized upon these e-mails to attack efforts to 
address climate change. Are you aware that anything was 
uncovered in those e-mails that undermined the scientific 
consensus on climate change?
    Mr. McCarthy. Thank you, Senator. Indeed, there was a lot 
of press as you described, and it prompted a number of 
investigations. There were investigations conducted by 
Parliament in the U.K. since that is where the server was 
based, and that is where the theft presumably occurred.
    There were investigations conducted by our National Science 
Foundation in this country because the National Science 
Foundation supported much of this work, through investigations 
conducted by all the universities in which the scientists who 
were involved in these exchanges of e-mail resigned. And none 
of those investigations found that there was any reason to 
question the science that was in play and discussed in these 
various matters.
    There were questions about access to the data, the 
scientists were being harassed by people wanting their data, 
wanting their code, and there were questions about some really 
lousy papers that had been published and through the peer 
review process would not have to be dealt with in a very, very 
protracted way. But the science stands unaffected by any of the 
investigations. No fault was found. The scientists were guilty 
of bad manners.
    Senator Lautenberg. Thank you.
    Dr. Christy, your research on satellite temperature has 
often been used to challenge the reliability of climate change 
models. However, your research was shown to be wrong. 
Specifically, you failed to make the right adjustments for 
satellite orbit and other factors when analyzing the 
temperature data.
    Once those errors were corrected, the satellite data 
confirmed the warming trend. Did your personal views regarding 
climate change affect your views of the research?
    Mr. Christy. No. First of all, I disagree with his view of 
Climategate, but we will go on to your question. Science is the 
process of getting to the best answer through time. Our data 
set changed by less than the error margin we had published 
already. And so even today our data set has a more warming 
trend than one of the other satellite data sets. So, that did 
not change because the errors were relatively small.
    Senator Lautenberg. Relatively small. Well, they seemed to 
raise quite a degree of doubt in the scientific community that 
your analysis that the changes were relatively small; I do not 
think it is the popular view. So, you are entitled to your own 
bias, if you will.
    Dr. McCarthy, you do a lot with the ocean, obviously, and 
its ability to encapsulate the information of change that we 
are seeing. What has happened up in the Arctic and the 
Antarctic? And has there been any effect of climate change in 
these regions?
    Mr. McCarthy. The Arctic has changed profoundly. I show 
graphs in my written testimony of the loss of sea ice in the 
Arctic. The data is only really precise since 1980, but we are 
setting new records already in June and July of this year for a 
low sea ice extent in the Arctic.
    Also, you would expect this warming to affect ice on 
Greenland, and it certainly is, not only by warming the 
atmosphere but also warming of the ocean. The Petermann Glacier 
slide that Senator Boxer showed, this is a tidewater glacier. 
The glacial tongue sticks out into the ocean. And these are the 
glaciers that are retreating most rapidly because the ocean is 
warming.
    So, yes, Greenland and Antarctica are both losing ice. The 
warming ocean is eating away at the tidewater glaciers so they 
are retreating very quickly, and sea ice is being lost in the 
central Arctic because of a warmer atmosphere.
    Senator Lautenberg. In a trip that I made with some of my 
colleagues here to Greenland, and ultimately I went down to the 
South Pole, and species mammals had radical changes in their 
population over this period of time. And they are ocean 
dependent. Are those real changes or are we imagining these?
    Mr. McCarthy. The first slide I showed had 10 physical 
indicators. We could have a whole other chart that showed 
biological indicators. On every planet right now, every planet, 
excuse me, every continent on this planet, we have one planet, 
unfortunately, only one, every continent on this planet you are 
seeing changes in the distribution of organisms which are 
indicative of a change in climate. And the direction they are 
changing, whether it is their range or their time of migration 
or flowering, are consistent with the local changes which in 
many cases are warmer, wetter, or drier. And we are seeing 
similar trends in the ocean.
    Senator Lautenberg. Madam Chairman, I did not mean to run 
over, but I thought since the disputation that was going on 
here took some time that I would have some license to do it.
    Senator Boxer. You have your license, Senator.
    Senator Lautenberg. One license more, and that is, how come 
the things we are seeing are not really there? This is the 
mystery that we are facing here.
    Thank you very much.
    Senator Boxer. Yes. That is interesting.
    [Laugher.]
    Senator Boxer. Senator Boozman, you have the last 
questions.
    Senator Boozman. Thank you, Madam Chair.
    Again, Senator Lautenberg suggested that what we are seeing 
is not really there. As scientists, you do not really think in 
those terms, do you? In the sense of trying to correlate what 
is going on this summer with a pattern? Is that correct?
    Senator Boxer. Who are you asking it to?
    Senator Boozman. Just whoever wants to jump in.
    Mr. Field. The scientific method is a spectacularly 
powerful tool for extracting inference, and on top of that the 
process of doing these assessments is a wonderful way to sort 
through all of the published literature. What we do is make 
observations, interpret, sort through, and present through the 
peer view process.
    Senator Boozman. I guess my point is that is a lot hotter 
in Arkansas this summer than it was last summer. Many centuries 
ago it was a lot colder, during the ice age, whatever caused 
that, than it is now. I guess what I am saying is that it is 
dangerous to really infer, and you can correct me from just 
what is going on this summer as compared to the whole deal.
    One thing that bothers me a little bit is that there is 
really a tendency, I am hearing, and we are not going to be 
able to decide whether exactly what is going on today or who is 
causing it or this or that, but I am bothered when I hear 
scientists say it is this way or that way. OK? In the sense 
that we can recount throughout history, and throughout recent 
history, all kinds of times when the scientific community was 
completely in agreement that this or that was that way and it 
was not that way. So, I do think as scientists we really do 
need to continually, the statements, it is this way or that 
way, are not really helpful.
    When I was in high school I was told that we would be out 
of our natural gas in 20 years. We have got more natural gas 
now than ever. OK? Y2K. I am sure that all of you adjusted your 
computers, and the scientific community agreed completely that 
if we did not adjust our computers at the time it was true that 
we going to have all of this stuff gone. But the reality is no 
computer any place caused any problem.
    So I do think that as we discuss these things, it is 
dangerous, it is this way, period. And I am really hearing some 
of that from some of you all.
    My question is, the dilemma that we have is if this is 
manmade, how do we respond to that? In Arkansas, electricity 
would rise by, if we went to cap and trade, which was suggested 
by some here, electricity would rise $1,358 a year and $1.27 
per gallon increase in gasoline prices. The question is, what 
does that do to our single moms? What does it do to our people 
on fixed incomes? What does it do to our economy?
    And so what we are grasping with, and you all can be 
helpful, even if it were true, that we are in a global warming 
situation because of CO<INF>2</INF>, what could possibly be 
done that would counter that in a sense especially with China, 
India, places like that not going along with it, which they 
have said they will not.
    Yes, sir.
    Mr. Christy. I would just say on the other side of that is, 
would that have any effect on the climate anyway?
    Senator Boozman. Yes, that is my point.
    Mr. Christy. The answer is no, that is so minuscule as to 
be so undetectable and unpredictable and unattributable.
    Senator Boozman. And have you two, go ahead, sir, have you 
done any research that says if we do this or that that this or 
that is going to happen, and it is worth the $1,300 a year and 
$1.27 in gasoline----
    Senator Sanders. Would the gentleman yield? And contribute 
time to him. Just for one question. Where do you get that, 
where do those numbers come from? Those are not numbers that I 
am familiar with nor do I agree with.
    Senator Boozman. It is a study from David Kreutzer, Ph.D., 
Senior Policy Analyst in Energy, Economics and Climate Change, 
and Karen Campbell, Ph.D., William W. Beach, Director of the 
Center for Data Analysis Energy and Environment and Nicolas 
Loris.
    Senator Sanders. You have one study then, Senator, that 
says that other studies would disagree?
    Senator Boozman. But I have no reason to, I think everyone 
during the discussion of cap and trade, energy trade would go 
up significantly and that was the mechanism of controlling the 
use of energy.
    Senator Inhofe. And that is what the President said.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     Mr. Field. Senator, thank you for the question. And it is a 
great question. What is important to recognize is that what we 
are trying to do is provide sufficient information for 
policymakers to make good decisions, to try to figure out ways 
to avoid the damages that come from the climate change without 
providing unacceptable costs to the rest of society.
    And we are really trying to find smart ways to move 
forward, recognizing what is happening, recognizing what the 
risks are, and that there are consequences of using the 
atmosphere as a dump for greenhouse gases, just the same way 
there are consequences of making changes in the economy that 
are intended to alleviate those damages.
    The estimates from the IPCC indicate that the cost of 
stabilizing atmospheric CO<INF>2</INF> at something like 550 
ppm could be anywhere from a net benefit to the economy to 
resulting in something like in 2050 that we would reach a level 
of wealth 1 year later than we would otherwise do it.
    Senator Boxer. OK. Wow. Very intense conversation. And I 
want to thank colleagues.
    I am going to ask unanimous consent to place in the record 
a chart based on NOAA temperatures that directly refutes 
Senator Sessions' chart. So then we will have two charts, one 
that shows that since 1950, well, since 1990, there have been 
more record highs than record lows, all the way to the present. 
So, we will put that in and we can look at both of those and 
see which one we agree with.
    Senator Sanders. Madam Chairman, a unanimous consent----
    Senator Boxer. Yes, go ahead.
    Senator Sanders [continuing]. To place into the record, 
just in response to my friend Senator Boozman, a study done by 
McKinsey Consultants which says U.S. can meet entire 2020 
emissions target with efficiency in cogeneration while lowering 
the nation's energy bill $700 billion.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. OK. Well, I think what is important----
    Senator Sessions. Madam Chairman.
    Senator Boxer. Yes, sir.
    Senator Sessions. I was just going to offer for the 
record----
    Senator Boxer. Yes, please go ahead.
    Senator Sessions [continuing]. The recent Wall Street 
Journal article by a number of respected scientists who say 
that we should not be panicking about global warming and point 
out many of the problems with the theory.
    [The referenced information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
       
    Senator Boxer. OK. And I would just clarify for the record, 
I am not panicked about global warming. I just feel that 
Congress is the only place that seems to just shrug its 
shoulders, and even though admitting that it is occurring, does 
not really want to do much about it.
    I will also place in the record several studies that 
confirm that, in essence, at the end of the day our consumers 
will save a lot of money once they have energy efficiency put 
into place and we have, we are energy independent, independent 
of the nations that do not like us very much. Once that 
happens, we will see a reduction in costs for the individual.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. I want to thank all of you scientists for 
being here. We greatly appreciate this. And we will call you 
back because we are going to keep on this as long as it takes 
to get some action here in the U.S. Senate.
    And Senator Inhofe has something for the record.
    Senator Inhofe. For the record, I would like to have the 
report that shows, it came from a number of universities, that 
if we were to do the cap and trade as has been described in 
several pieces of legislation, the cost to the American people 
would be between $300 billion and $400 billion a year, which is 
10 times greater than the tax increase of 1993.
    Senator Boxer. OK. And I would put into the record a direct 
refutation of that.
    So, we start off, unfortunately, where we left off, which 
is the Republican side denying and saying even if they agree, 
let us not doing anything about this----
    Senator Sessions. Well, we could agree on something, Madam 
Chair----
    Senator Boxer. Yes, go ahead, tell me.
    Senator Sessions [continuing]. And that is I have, and I 
think most Republicans, have voted for mileage improvements and 
efficiencies. Many of us have supported, at times, ethanol 
expansion and those kinds of things because we can do those 
scientifically, and it makes sense for everybody. So, here is 
an area that we can agree. And if CO<INF>2</INF> is causing an 
increase in temperatures, all of these steps will help 
alleviate it.
    Senator Boxer. Absolutely.
    Senator Sessions. It is just a question of how much we can 
afford to spend, and that is where the dispute is. Thank you 
for letting me say that.
    Senator Boxer. Well, I like what you just said, and I think 
there is room for it. So, why do we not continue that 
conversation together, Senator Sessions. Are you willing to do 
that, sit down and talk about those various energy 
efficiencies, fuel efficiencies? All right, we will do it. 
Thank you very much.
    And thanks again to the panel.
    We will go to our next panel. We are going to have to do 
more about the gavel on this one.
    Secretary John Griffin, Maryland Department of Natural 
Resources, Dr. Margo Thorning, Senior Vice President and Chief 
Economist, American Council for Capital Formation, Dr. Jonathan 
Fielding, Director, Los Angeles County Department of Public 
Health, National Association of County and City Officials.
    We are going to have to move this quickly, so if our new 
witnesses could take their seats. I want to thank them for 
their patience.
    I know Senator Cardin wants to introduce his witness from 
his State, so why do you not go ahead, Senator Cardin.
    Senator Cardin. Madam Chair, while they are getting 
situated, let me welcome Secretary John Griffin. He has had a 
long and distinguished career in our State. He has been one of 
the architects of the Chesapeake Bay Program that this 
Committee has heard me talk about on frequent occasions. 
Maryland has been one of the leaders in developing sensible 
plans to deal with our environment.
    I particularly want to acknowledge the leadership of the 
O'Malley administration. Secretary Griffin chairs the 
Adaptation and Response Working Group for the Maryland 
Commission on Climate Change. We believe that Maryland will 
give examples of what we can use as a national model to deal 
with the realities of the new norm on climate change and deal 
with changes we need to make for public safety and for our 
future. We are a coastal State, and we need to deal with the 
risks. And our nation needs to have good policies.
    I want to thank Secretary Griffin for being here.
    Senator Boxer. Thank you very much, sir.
    With that, we will open it up with Secretary Griffin. I am 
going to use this gavel a little stronger because we have got 
some meetings at 12:30. So, go ahead.

           STATEMENT OF JOHN B. GRIFFIN, SECRETARY, 
            MARYLAND DEPARTMENT OF NATURAL RESOURCES

    Mr. Griffin. Chairman Boxer, Senator Cardin, thanks for 
that kind introduction, distinguished members of the Committee 
of Environment and Public Works, I am pleased to be here today 
to discuss with you the importance of taking precautionary, cos 
effective, and common sense actions now to reduce our 
vulnerability to the current and future impacts of climate 
change.
    I guess I should also say that I bring warm greetings from 
Governor Martin O'Malley.
    I was asked today to share with this Committee our efforts 
in Maryland to respond and adapt to the impacts of climate 
change. Before I do so, though, I wanted to highlight some of 
the impacts that we are observing and dealing with right now in 
our State.
    Sea level rise. We have documented a sea level rise of 1 
foot over the last century due to the combination of land 
subsidence and global sea level rise, and an additional 3 to 4 
feet is projected by the end of this century, increasing our 
vulnerabilities to strong events, causing more frequent and 
severe flooding, more shoreline erosion, saltwater intrusion 
into our drinking water aquifers, and higher water tables.
    A recent study you may have seen from the U.S. Geological 
Survey identified the stretch of coast running from Cape 
Hatteras to a little bit north of Boston as a hot spot for sea 
level rise caused by global warming. Since 1990 USGS found that 
sea levels along this stretch, which includes, obviously, 
Maryland, are rising at an annual rate three or four times 
faster than the global average.
    Shoreline erosion. Maryland is currently losing 
approximately 580 acres of land per year to shore erosion, and 
alarmingly 13 Chesapeake Bay islands once mapped on nautical 
charts have already disappeared beneath the water's surface. A 
2008 report by the National Wildlife Federation calculated that 
an additional 400,000 acres of land on Chesapeake's Eastern 
Shore, that is basically Maryland and Virginia, could gradually 
be submerged.
    Waterfront property along our thousands of miles of tidal 
shoreline put billions of dollars of public and private 
investment at risk of loss. For example, approximately 450 
State-owned facilities, and close to 400 miles of State 
highways, are located in areas that are most vulnerable to 
impacts from sea level rise.
    Water temperature increases. Since 1960 the Chesapeake 
Bay's water temperature has increased 2.8 degrees Fahrenheit. 
One example of the impact of this change is a decline in 
eelgrass, an underwater grass that provides critical habitat 
for fish and juvenile crabs. Scientists expect that eelgrass 
will very likely be eliminated in the not too distant future 
from the Chesapeake and our seaside bays because of rising 
water temperatures.
    Impact on Chesapeake Bay restoration. We were also very 
concerned about the consequences of climate change impacts on 
the health of the Chesapeake Bay. As shorelines erode, marshes 
are lost, and forests are flooded, the amount of nutrients and 
sediments entering the Chesapeake Bay will increase and set us 
back on our efforts to restore the health of the bay and all 
the commendable work that Senator Cardin and this Committee 
have done to help us in the bay region restore the bay.
    What is Maryland doing to adapt? In 2007, shortly after he 
was elected in his first term, Governor O'Malley established 
the Maryland Commission on Climate Change. The commission about 
a year later did its original report laying out factions to 
address not only the drivers of climate change but also how we 
will adapt and respond to those impacts. Our department, as was 
mentioned by Senator Cardin, has been leading the adaptation 
work.
    Maryland enacted, in 2009, the Greenhouse Gas Reduction Act 
which commits the State to reducing greenhouse gas emissions 
over a baseline of 2006 by 25 percent by 2020. And the Climate 
Action Plan produced by the Commission also has identified, in 
two reports, a series of actions that ought to be taken by the 
State and its local governments to prepare for and adapt to 
climate change.
    Let me just share with you a few of the changes that we are 
doing at the moment----
    Senator Boxer.Doctor, I am going to have to ask you to put 
those into the record, because we will get to you with the 
questions.
    Mr. Griffin. That is fine. I would be happy to do so.
    Senator Boxer. Thank you so much.
    [The prepared statement of Mr. Griffin follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Senator Boxer. Now, I am very proud to welcome Dr. Jonathan 
Fielding, Director, Los Angeles County Department of Public 
Health, National Association of County and City Health 
Officials.
    Thank you, sir.

 STATEMENT OF JONATHAN FIELDING, M.D., MPH, MBA, DIRECTOR, LOS 
     ANGELES COUNTY DEPARTMENT OF PUBLIC HEALTH, NATIONAL 
        ASSOCIATION OF COUNTY AND CITY HEALTH OFFICIALS

    Dr. Fielding. Chairman Boxer, Ranking Member Inhofe, and 
members of the Committee, thank you for the opportunity to 
speak. I am Jonathan Fielding, Director of Public Health and 
Health Officer for L.A. County, a professor at UCLA Schools of 
Medicine and Public Health, and I am here also representing the 
National Association of County and City Health Officials, which 
is a membership organization comprised of the nation's local 
health departments. We are the feet on the ground.
    Senator Boxer, NACCHO and local health departments across 
the country recognize and appreciate your leadership on the 
issue of climate change and its impacts on public health. The 
city, county, metropolitan, district, and tribal departments 
work every day to protect residents from all health threats. 
Some, of course, are very long standing: unsafe water, food. 
These threats multiply when we have disasters, hurricanes, 
tornadoes, earthquakes, and wildfires. Local health departments 
also are responsible for protecting health and minimizing the 
health effects of many types of acts of terrorism, bio-
terrorism, chemical terrorism, and dirty bombs.
    We are here because our No. 1 job is to protect the 
public's health, and it is our responsibility to adhere to the 
precautionary principle. When we see threats, or threats are 
very likely, we have to be ready to respond quickly and 
effectively.
    We are currently witnessing the effects of severe storms, 
droughts, wildfires, and other extreme weather events that 
cause severe trauma, lead to increases in number of diseases 
like respiratory disease, to contaminated water and air, and 
also to mental health. This disproportionately affects the 
poor, the young, the elderly, and those with physical or mental 
disabilities.
    As you have heard, the past decade was the warmest on 
record. In 2011 the lower 48 States set temperature records for 
the warmest spring, the warmest year to date, and the warmest 
12-month period since recordkeeping began in 1895. So, we 
cannot ignore the Intergovernmental Panel on Climate Change 
conclusion that climate change threatens to ``increase the 
number of people suffering from death, disease, and injury from 
heat waves, flood, storms, fires, and droughts.''
    And we cannot ignore the likelihood that climate change 
will bring us serious vector-borne diseases, mosquitoes and 
others, that give us dengue fever, Chagas' disease, and other 
diseases we have not seen before here.
    The Federal Government, States, and local health 
departments all need to adapt to the new and growing risk to 
critical infrastructure, precious resources, the natural 
environment, and human health. These affect not only our 
national health but our national productivity, our 
competitiveness, and our standard of living.
    It has been estimated the costs from six climate-related 
events from 2006 to 2009 was more than $14 billion. And this 
figure is an understatement because many of the health effects 
continue to be felt years after the precipitating event, as 
many survivors of Hurricane Katrina can attest.
    Many health departments have already taken very specific 
steps. In Los Angeles County, we have enhanced emergency 
preparedness for increased frequent heat events, and we have 
conducted vulnerability assessments to identify the most 
vulnerable populations and are linking them to emergency 
resources. The Tulsa County Health Department is conducting 
focus groups after its hottest summer on record in 2011 to help 
identify vulnerable populations related to respiratory disease, 
vector-borne disease, and heat related illness, and to modify 
its Metropolitan Area Health Improvement Plan.
    Multnomah County in Portland, Oregon, has completed a 
vulnerability assessment and is working with a State authority 
to develop a heat vulnerability index and is testing a Heat 
Warning and Events Communication Plan. Health departments from 
all over, and we will put these in the record, East and West 
Coast, north and south, have all taken action adapting to 
changes.
    So, we cannot afford inaction. I think the threats to 
climate change effects are basic survival resources; food, 
water, shelter, and health; and we as local health departments, 
as your foot soldiers, have to be better prepared.
    But despite the threat, preparedness funding for local 
health departments has been declining. About 55 percent of 
local health departments saw a decline in their resources in 
the most recent survey. We need to expand the most recent 
investment made by the Centers for Disease Control in this 
area, not reduce it as has been proposed.
    And the climate change bill championed by you, Chairman 
Boxer, addresses the public health role in climate change and 
the need for a clear action plan at all levels of government. 
Action is needed now because inaction threatens our public and 
our national competitiveness.
    Thank you very much for the opportunity to appear before 
you. I would be happy to answer questions.
    [The prepared statement of Dr. Fielding follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    Senator Boxer. Thank you very much, Doctor.
    And now we hear from our last witness today, and that is 
Dr. Margo Thorning, Senior Vice President and Chief Economist, 
the American Council for Capital Formation, as a minority 
witness.
    Welcome.

 STATEMENT OF MARGO THORNING, PH.D., SENIOR VICE PRESIDENT AND 
    CHIEF ECONOMIST, AMERICAN COUNCIL FOR CAPITAL FORMATION

    Ms. Thorning. Thank you, Chairman Boxer, Ranking Member 
Inhofe. I appreciate the chance to appear before you today to 
discuss some of the challenges and some of the opportunities 
that the business community has in adapting to the potential 
climate variability or climate change.
    First, some of the challenges. The climate models that we 
have seen predicting change out over the next 50 to 100 years 
vary greatly, not only in terms of where the change in 
temperature or the change in precipitation may occur, but also 
when. So, the climate models are not sufficiently precise to 
allow business to make good plans for the future.
    Second challenge is that the business community tends not 
to plan more than 3 to 15 years in advance unless you are in a 
business like utilities where your capital stock may last 40, 
50, 60 years. So, the general business plans are not able to 
make--take account of the fact that climate change may occur 
but may not be significant for 50 or 100 years. So they will 
tend to adopt what we call no regret strategies which are 
changes that they would make in the normal course of doing 
business.
    A third barrier or a third challenge for the business 
community to adapting to climate variability is regulatory 
policy and permitting delays. For example, the regulations, the 
EPA's regulation of greenhouse gases under the Clean Air Act is 
estimated to slow investment spending in 2014 by $25 billion to 
$75 billion and reduce GDP significantly and also hinder job 
growth, perhaps 500,000 to 1.4 million fewer jobs. That slows 
economic growth, makes it more difficult for the economy to 
provide the resources to provide for adaptation to climate 
change.
    Now, the opportunities for the business community to adjust 
to climate change are certainly there. Many companies are 
adopting no regrets strategies, as I mentioned, strategies that 
they would do anyway. For example, in agriculture, figuring out 
developing seeds that are more drought resistant or more 
resistant to increased weather variability.
    So, many industries are already adjusting suppliers and 
thinking about what the potential impact is. But these are 
changes they would do as a normal course of business. They are 
not responding to threats that may be out there 50 to 100 
years.
    Other industries like utilities are beginning to do what we 
call hard adaptation. They are beginning to change the way 
they--change the installation of their transmission lines, 
their distribution lines. For example, Intergy, the big 
company, a big energy company on the Gulf Coast, is spending 
$75 million to harden its transmission and distribution lines 
to a major port because of experience with extreme weather. So, 
they are actually going beyond no regrets strategies.
    But the main thing that probably would assist companies in 
adapting to the potential threat of climate change is making 
sure we maintain strong economic growth because with that we 
can afford to make the changes that may be necessary. One 
component of maintaining strong growth is making sure that our 
tax code continues to preserve strong capital formation 
initiatives. As we debate tax reform, we need to be sure that 
any reform that is put in place does not weaken the incentives 
for new investment.
    And even going beyond lowering corporate rates, as both the 
Simpson Plan and others have suggested, we ought to be thinking 
about switching to a consumed income tax. A joint tax committee 
research, as well as research by Allen Sinai of Decision 
Economics, shows that if the U.S. were operating under a system 
where all savings is deductible and all investment is expensed, 
we would have faster economic growth, more investment, faster 
job growth, and it would enhance our ability to adapt to 
climate change.
    The last point is the need to reform our regulatory 
process, to make sure regulations meet the cost-benefit test so 
that they do not unduly burden our ability to invest and to 
grow, and to reform the permitting process.
    I also want to add that when you think about small and 
medium-sized enterprises, if climate change does occur they 
will face even greater challenges than do large scale 
operations. So, we need to be very careful that we preserve the 
kind of incentives that enable the U.S. economy to grow and 
make the changes that might be necessary.
    Thank you.
    [The prepared statement of Ms. Thorning follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Senator Boxer. Thank you.
    I am going to take some time to ask Dr. Thorning a set of 
questions. Then I am going to turn to Senator Inhofe. He can 
ask whoever he wants, and then I will get back to the rest.
    Dr. Thorning, I found your testimony really interesting 
since you are a minority witness, and I just--I guess I need to 
know what is your role in the American Council for Capital 
Formation? What is your responsibility in that organization?
    Ms. Thorning. Helping to guide the research that we 
undertake, helping to explain to media, to the public, to 
policymakers what the economic consequences of various policy 
shifts might be.
    Senator Boxer. And yet you said that--it seemed to me that 
you were sort of saying that companies are getting ready for 
the impacts of climate change already. Is that correct?
    Ms. Thorning. My understanding is companies are taking it 
into account. They are beginning to do no regrets strategies.
    Senator Boxer. What does that mean, no regrets?
    Ms. Thorning. That means, for example, if you are a seed 
producer you would be trying to develop seeds that could 
withstand drought or could withstand increased rainfall or 
increased----
    Senator Boxer. So that you will not regret the lost 
opportunity to do this.
    Ms. Thorning. And presumably whether the climate shifts 
sharply or not, you still would be better off.
    Senator Boxer. Great point. Great point.
    Ms. Thorning. It is my understanding that they are 
undertaking policies that will enable them to sustain their 
business and also potentially be ready for what may come in 
terms of climate.
    Senator Boxer. Well, I am going to quote you from now on 
because I think we need to do a no regrets strategy here. This 
is a break through moment because what you basically said is 
that--see if I am interpreting it right--you are not positive 
when this happening, although I did read your testimony, it 
looks like you have embraced the fact that changes are coming 
and may not come for a few decades, but they are coming. But 
instead of wasting this time, you are going to take steps in 
case the worst happens. That is how I am looking at it.
    Ms. Thorning. I think most prudent businesses would be 
looking ahead. They try to anticipate the best they can what 
the future may hold. But the main point of my testimony is that 
most businesses do not really make hard investment decisions 
beyond a 3- to 15-year time horizon, and the long, long term 
projections for climate change are simply beyond what they 
normally can incorporate in their business plan. But they will, 
where they can, adopt no regrets strategies.
    Senator Boxer. OK. Now, does the American Council for 
Capital Formation have an opinion on climate change?
    Ms. Thorning. We stick pretty much to the economics. I 
defer to your expert panel on climate change.
    Senator Boxer. OK, because I know some of your sponsors are 
the Koch brothers, the ExxonMobil, other oil companies, the 
American Petroleum Institute. But they are part of a long list 
of businesses, is that correct?
    Ms. Thorning. That is correct. We are supported by a wide 
range of industries in the financial sector, insurance sector, 
as you can see on our Web site.
    Senator Boxer. Well, I want to thank you for your testimony 
because to me, I think these businesses are being very prudent. 
They are embracing a no regrets strategy. They see that this 
could happen, it could accelerate, it may not, they say, but it 
could and they are doing things right now to prepare.
    And that is all I think we ought to do here as a nation, 
prepare. Because, as you pointed out in your testimony, I 
thought quite eloquently, Dr. Thorning, that the things that 
you are doing are good, good for the businesses. If they do, 
for example, create a seed that helps you get through a drought 
period, we all know there are going to be drought periods even 
if there is no intensification of that drought period. They are 
going to be prepared.
    So, I am going to take your lesson, this leadership in the 
private sector, to address this problem and bring it here to 
this Committee and see whether we cannot find some more support 
for moving forward to have a no regrets type of strategy. I 
really appreciate your bringing that terminology into this 
debate.
    Thank you.
    Senator Inhofe. Well, thank you. First of all, I will have 
to, I hate to do this but I will have to leave as soon as I ask 
my questions because I told the Chairman I have a serious 
problem outside.
    Let me ask you to put four things in the record that I 
think are important as a result from the testimony from the 
first panel. One is the--from the NASA report that says that in 
2011 saw 9,000 Manhattans of ice recovery, and we are talking 
here about the Arctic. The second one would be a peer reviewed 
paper, the American Geophysical Union found a doubling of snow 
accumulation in the western Antarctic peninsula since 1950.
    The third would be a reviewed article in the climate, the 
Journal of Climate, that examines the trend of sea ice 
extending the east Antarctic coast from 2000 to 2008 and finds 
a significant increase of 1.3 percent per year. And last, 
Greenland, since it was mentioned, even the IPCC recognized 
that the ice sheet is growing at 2 inches a year.
    So these four things I would like to have made a part of 
the record.
    Senator Boxer. We will in fact do that.
    [The referenced information was not received at time of 
print.]
    Senator Inhofe. I would only say the last conversation, and 
the questions that were asked of you, Dr. Thorning, that there 
is a big difference between could happen and will happen. I 
think a lot of companies--and I came from the private sector, 
we do things, we try to anticipate. If something could happen, 
we want to be ready for it. Not that it will happen. There is a 
big difference.
    Now, over the years you have testified that the costs of 
cap and trade, and I would suggest after perhaps one of the 
members to my left might want to introduce another cap and 
trade bill because I can assure you that it would not pass. In 
fact, less than one-third of the U.S. Senate would be voting 
for it.
    You have talked about the costs of cap and trade. I have 
talked about the costs of cap and trade. Now, a lot of us are 
anticipating and suggesting a carbon tax. Tell me, 
economically, how that would affect our country, a carbon tax?
    Ms. Thorning. Well, putting a tax on a commodity like 
energy will certainly raise prices and probably negatively 
impact U.S. competitiveness. If we are going to do any kind of 
tax policy, as I said in my testimony, I think we should be 
looking at switching to a consumed income tax where all 
investment is deductible, and all saving is tax exempt, and 
what is the tax base is consumption. That would be consumption 
of everything, energy, food, high priced cars, et cetera.
    So, I would suggest the best approach to helping the U.S. 
economy grow, which will help it adapt to whatever comes down 
the path, is to switch to a broad based consumption tax.
    Senator Inhofe. All right. I can remember before this 
Committee when Director Lisa Jackson was making her testimony, 
and I asked the question, if we were to pass, at that time I 
believe we were talking about the Waxman-Markey bill--but it 
did not make any difference because cap and trade is cap and 
trade--would this reduce, if we passed it, worldwide 
CO<INF>2</INF> emission, and she said, of course, no, it would 
not. And I appreciated her honesty.
    I also remember, I think it was either 2005 or 2006, is 
when a change took place. We used to be a larger emitter of 
CO<INF>2</INF> than China. That all changed in, I think it was 
in 2006. Today, and we have a chart that shows this, China has 
gone up so that it now has doubled the CO<INF>2</INF> emissions 
than that of the United States.
    So, I would like to ask you the question, economically, if 
this trend continues, what is going to happen, what is going to 
be--how does it affect us, our manufacturing base and our 
economy in this country?
    Ms. Thorning. Let me be sure I understand the question. 
What happens if China's emissions continue to grow? Or what 
happens if we try to cap our own emissions?
    Senator Inhofe. Well, you would be capping our own 
emissions if we do because we are talking about doing that, 
either a carbon tax or something else.
    Ms. Thorning. Oh, I see. Well, because of the global trend, 
the rest of the world emissions growing so much faster, ours 
actually declined from 2006, I think capping emissions here 
will have virtually no impact on global concentrations.
    In fact, EPA released a figure back when they were debating 
the Waxman-Markey bill that showed that even if the U.S. met 
the targets in the Waxman-Markey bill by 2050, it would make 
almost no difference of GHGs.
    So, I think measures like cap and trade in the U.S. would 
be counter-productive, it would slow our growth, we would not 
be able to make the changes that might be needed to adapt 
because our growth would be so much slower. So it would be 
counter-productive.
    Senator Inhofe. And I appreciate that. That is essentially 
what the director of the EPA said in response to the question.
    The last question I have is, you mentioned that as a result 
of the uncertainty caused by the EPA's greenhouse gas 
regulations, business investment is expected to decline by 5 to 
15 percent, and directly impact industries, which could result 
in 476,000 jobs to 1.4 million fewer jobs in 2014. Is it fair 
to say that eliminating EPA's authority to regulate greenhouse 
gases would save these jobs?
    Ms. Thorning. I think scaling those back would definitely 
reduce some of the uncertainty faced by the business community. 
The business community faces uncertainty from the healthcare 
bill, Dodd-Frank, debt ceiling, tax reform, as well as 
environmental regulations. So, anything we can do to reduce 
uncertainty would tend to encourage investment. And investment, 
non-residential investment, is still down about 6 percent 
compared to the fourth quarter of 2007.
    Senator Inhofe. Yes. And if you--I am sure that you have, 
but you might share with us your thoughts on this. When we had 
cap and trade legislation, they were talking about how much 
greenhouse gas should, could, under those be reduced. However, 
if you look at doing this through an endangerment finding and 
doing it through regulations, that amount would actually have 
to go down far below what was found in any of the cap and trade 
bills to be consistent with the Clean Air Act. And that would 
have been down to, I think, 25,000 as opposed to something, 
what, 250,000.
    How much greater effect would that have on our economy that 
just cap and trade?
    Ms. Thorning. Well, it would be significantly greater 
because almost all facilities of any size at all would have 
been impacted, and it would hinder investment and hinder even 
continued operation for many, many companies.
    Senator Inhofe. Thank you very much.
    Senator Boxer. Thank you, Senator.
    So, here is the situation. I need to go to a leadership 
meeting. I am going to put something in the record, I am going 
to thank everyone, I am going to hand the gavel to Senator 
Cardin, and he can call, after he is done, on Senator Sessions 
and then if Senator Cardin can close this down.
    I just want to put into the record late breaking news from 
CNN, more than half of U.S. counties now disaster zones due to 
drought. So, this no regrets strategy that Dr. Thorning has put 
forward should be embraced by everybody--business, the Federal 
Government, and I know, particularly, in States like Maryland 
that are already seeing an impact.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. So, I am going to turn the gavel over. I 
want to thank everyone from the bottom of my heart.
    Senator Cardin [presiding]. Senator Boxer, thank you very 
much.
    I just really want to respond very briefly to Senator 
Inhofe. The efforts that we have engaged in Congress with 
Senator Lieberman and Senator John Warner, Senator Kerry and 
Senator Boxer, in order to take responsible steps to deal with 
climate change, was not aimed at what was happening in the 
United States alone, but was aimed at joining the international 
community so that the chart that we just saw in regards to 
China, you could also put one in regards to India, that it 
would be fair competition globally with internationally 
efforts.
    So I just really wanted to set the record straight as to 
the efforts. It was aimed, yes, at the United States, 
energizing our economy, energizing our business leaders to come 
up with solutions to climate change, but also doing it in 
context of the international community.
    Secretary Griffin, I want to get to the issues of 
adaptation, and I really do applaud Governor O'Malley and the 
O'Malley administration for taking a real leadership position 
on realities of adaptation, on dealing with the new norm, and 
that is extreme weather. We cannot tolerate the type of 
disruptions we had just a few weeks ago with the storms and 
people being out of power for over a week in 100 degree 
weather.
    I know that Governor O'Malley has taken certain steps. The 
consumers have a right to better information than they had 
during this storm. It is not right to call a number and get a 
recording saying that your power is going to be back that 
evening and find out 3 days later that you still do not have 
power. People needed to have good information.
    So, is the Governor, in part of his work, working with our 
utilities to establish a better service response to these types 
of, now I think more frequent, storms?
    Mr. Griffin. Yes, Senator Cardin. This actually started a 
few years ago due to other weather related power outages around 
our State. And he has been working with the Public Service 
Commission. Just, I think last week, he issued another 
Executive Order forming a team of government, science, and 
utility experts to start to look at how we build more 
reliability into our distribution systems for electric power.
    So we are doing all that we can. It is not easy. Certain 
issues we are looking at, such as the pros and cons of burying 
utility lines, are fairly daunting and costly, but nonetheless 
the Governor seems very committed to gradually improving in a 
variety of ways the reliability of our distribution system.
    Senator Cardin. And I would urge him also to get, to 
require our oversight for better information so people know 
what the likelihood is of restoring power.
    I want to get to some of the challenges we have at sea 
level, our State being a coastal State, and some of the action 
that we have already taken. I have visited Smith Island. I know 
what is happening at Smith Island and the loss of land and 
people trying to save their homes and their businesses.
    I was at the Naval Academy when we had the storm and the 
flooding, and I saw the damage that was done. And I see the 
projections if we go up sea level what is going to happen to 
that type of facility. And it is not easy to retro do the type 
of work that is necessary.
    I know that you have made certain commitments as it relates 
to the Tubman Park Visitor Center, to put it above the flood 
plain which I think is the right type of policies we need to 
have for adaptation. So we plan today, recognizing that sea 
level is changing, and that we take steps to protect the 
shorelines from that type of damage. We have done work in Ocean 
City in order to protect against the increased flooding.
    What do you see as coming out of the task force that you 
are working with to deal with the unique problems we have being 
a coastal State?
    Mr. Griffin. Those are all very legitimate points, Senator 
Cardin. I think I would view it in the largest sense as we are 
on a continuum of learning and taking, I think, prudent 
actions. An ounce of prevention now, certainly in my view, 
history, in our view, history teaches us is far superior than 
allowing these problems to build and build when the cost of 
remediation is far greater.
    I think we are doing, not only in Maryland but through 
RGGI, the Regional Greenhouse Gas Initiative, with other States 
and also an effort regionally with States from New York down 
through Virginia called MARCA. The Governors of those States 
signed a series of MOUs back in 2009 to start looking at ocean 
policy, and one of the key issues there was climate change and 
our ability regionally to adapt to it.
    So, a number of things are unfolding. A number of our 
coastal counties we have been working with with Federal 
support, thankfully, are starting to do the sort of work we are 
going statewide. We are assisting them with the tools. As you 
alluded to, better building codes, identifying the most 
vulnerable areas to try to reduce from the land use standpoint, 
further major development and investments there.
    So, those sorts of things are going on across the State 
actually, particularly in our coastal areas which is where most 
of our people live, reside.
    Senator Cardin. Thank you very much. I appreciate that.
    Senator Sessions.
    Senator Sessions. Thank you.
    As we wrestle with these issues I think we have to be 
realistic or, I think, fair. With regard to drought and floods, 
this morning we have had advocates say that floods are caused 
by global warming gases and droughts are caused by global 
warming. Whatever happens, the advocates say it is caused by 
global warming.
    Well, maybe both can be. But the data I have seen so far 
does not indicate that. The chart I showed earlier indicates we 
are not having more extreme highs or lows in the last 60 years 
than we have had previous to that.
    Also looking at a chart on U.S. drought, since 1900 the 
patterns have not really changed. Last year was a pretty high 
drought year, but the year before that was a very low drought 
year, or 2 years before that, and it is pretty much the same 
pattern that we have had.
    Dr. Thorning, let me run a few things by you as an 
economist. It seems to me that, in an economic sense, passing a 
law that requires the business to community and private 
homeowners to spend large amounts of money to ``go green'' is 
no different than the Federal Government taxing the economy and 
the Federal Government paying to fix up people's homes to make 
them more ``green.'' Would you agree?
    Ms. Thorning. Yes.
    Senator Sessions. It may be slightly more efficient to let 
the individuals figure out how to do it themselves, but in an 
economic sense, we are burdening the economy when we ask people 
to do things that are not in their economic interest, correct?
    Ms. Thorning. Yes, I agree. I would like to add to that. In 
previous testimony, I noted that States that have renewable 
portfolio standards, which I believe 30 States do have, tend to 
have household and industrial electricity prices that are about 
30 percent higher than States without renewable portfolio 
standards.
    So, that is something to think about because that is a 
mandate that probably is not going to do much to slow global 
warming, but yet it imposes a very real cost, especially on 
low- and middle-income people.
    Senator Sessions. I remember a number of years ago we were 
losing our chemical industry in Alabama, and I know Ohio and 
other States were losing that industry, too, because of high 
natural gas prices. Natural gas prices have dropped 
dramatically, and I believe it is providing an incentive to the 
economy in creating jobs as a result of lower cost energy 
making us more competitive. Would you agree?
    Ms. Thorning. Yes. And in fact, if you look at the recent 
new plants being installed by our chemical industry, by the 
steel industry, and other industries that are dependent on 
either low feedstock prices or low electricity prices, you can 
see the positive impact that our increased production of 
natural gas in the U.S. has had on the overall economy.
    Senator Sessions. Now, we want to have higher wages, as 
high wages as we can possibly afford for our workers. But if we 
burden our workers with unnaturally high energy prices, it not 
only hurts the business, but it hurts the employees who are 
part and parcel of that commercial enterprise, correct?
    Ms. Thorning. Well, if you are spending more on electricity 
and energy you have less money to spend on other things, which 
means the economy, there is a contraction there. And 
productivity is not enhanced by raising energy prices.
    Senator Sessions. Now, Alabama has had some success in 
attracting investment: foreign investment, automobiles, steel, 
chemical, as examples. And when an industry looks at a State, 
is it not a fact that they consider energy prices very much in 
deciding where they might place a plant?
    Ms. Thorning. It certainly is an important factor.
    Senator Sessions. So, the extent to which we raise 
artificially energy costs, higher than they would be based on 
the normal market forces, we diminish the growth potential in 
our economy, do we not?
    Ms. Thorning. Yes. And in fact, studies that the ACCF has 
sponsored over the years on Waxman-Markey and the Kerry-
Lieberman bills demonstrate a significant impact on job growth 
and competitiveness compared to the baseline forecast.
    Senator Sessions. I just have to say that I am excited 
about low cost natural gas. I think that has provided us an 
infusion of money to our manufacturing sector and is going to 
create jobs. And if we can keep prices down, we will be better 
off. And to mandate costs that are not justifiable can create 
financial impacts on the people that are subject to the 
mandates. And that does hurt us economically. There is just no 
doubt about that in my mind.
    So, we try to strike the right pattern, Mr. Chairman, in 
which some of the regulations can actually make us be leaner, 
more efficient, more productive, while some of them add costs 
and make us less efficient, less productive, and cost jobs.
    Thank you.
    Senator Cardin. Thank you, Senator Sessions. And thank the 
second panel for your patience and your testimony.
    As was pointed out at the beginning of this hearing, this 
was going to be a lively discussion, and it was a lively 
discussion. And I agree with Senator Inhofe. I would hope that 
we would have more of these opportunities to debate these 
issues.
    So, I really want to thank you for adding to today's record 
as we look at not just the science, but what steps are 
necessary for adaptation as we go through different weather 
patterns and climate patterns here in America.
    We can argue the cause, we can argue a lot of issues. But 
the facts are the facts, and we need to take the appropriate 
steps in order to protect the public safety and the economy of 
America.
    I want to acknowledge Mitch Hescox with the Evangelical 
Environmental Network and the Young Evangelicals for Climate 
Action who are also here with us today. We welcome you here.
    And with that, the hearing will be adjourned.
    [Whereupon, at 12:45 p.m., the Committee was adjourned.]

                                 [all]
</pre></body></html>
